<html>
<title> - HOMELAND SECURITY BEYOND OUR BORDERS: EXAMINING THE STATUS OF COUNTERTERRORISM COORDINATION OVERSEAS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





                      HOMELAND SECURITY BEYOND OUR
     BORDERS: EXAMINING THE STATUS OF COUNTERTERRORISM COORDINATION
                                OVERSEAS

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON BORDER, MARITIME, AND GLOBAL COUNTERTERRORISM

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 4, 2007

                               __________

                           Serial No. 110-75

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
48-970 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON-LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina         MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

     SUBCOMMITTEE ON BORDER, MARITIME, AND GLOBAL COUNTERTERRORISM

                LORETTA SANCHEZ, California, Chairwoman

JANE HARMAN, California              MARK E. SOUDER, Indiana
ZOE LOFGREN, California              BOBBY JINDAL, Louisiana
SHEILA JACKSON-LEE, Texas            DAVID G. REICHERT, Washington
JAMES R. LANGEVIN, Rhode Island      MICHAEL T. McCAUL, Texas
HENRY CUELLAR, Texas                 GUS M. BILIRAKIS, Florida
AL GREEN, Texas                      PETER T. KING, New York (Ex 
BENNIE G. THOMPSON, Mississippi (Ex  Officio)
Officio)

                         Alison Rosso, Director

                         Denise Krepp, Counsel

                       Carla Zamudio-Dolan, Clerk

        Mandy Bowers, Minority Senior Professional Staff Member

                                  (ii)








                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Loretta Sanchez, a Representative in Congress from 
  the State of California, and Chairwoman, Subcommittee on 
  Border, Maritime, and Global Counterterrorism..................     1
The Honorable Mark E. Souder, a Representative in Congress from 
  the State of Indiana, and Ranking Member, Subcommittee on 
  Border, Maritime, and Gobal Counterterrorism...................     2
The Honorable James R. Langevin, a Representative in Congress 
  from the State of Rhode Island,................................    32
The Honorable Gus M. Bilirakis, a Representative in Congress from 
  the State of Florida...........................................    31
The Honorable Jane Harman, a Representative in Congress from the 
  State of California............................................    29
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas:
  Oral Statement.................................................    39
  Prepared Statement.............................................    39
The Honorable David G. Reichert, a Representative in Congress 
  from the State of Washington...................................    35

                               Witnesses

Mr. Gary L. Cote, Deputy Assistant Director, Immigration and 
  Customs Enforcementd...........................................    31
Mr. Thomas V. Fuentes, Assistant Director, Office of 
  International Operations, Legal Attache Program, Federal Bureau 
  of Investigation:
  Oral Statement.................................................    20
  Prepared Statement.............................................    21
Mr. Michael E. Leiter, Principal Deputy Director, national 
  Counterterrorism Center:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
Ambassador Marisa R. Lino, Assistant Secretary, International 
  Affairs, Office of the Secretary, Department of Homeland 
  Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................     9
Mr. Edgar Moreno, Assistant Director, Domestic Operations, Bureau 
  of Diplomatic Security, Department of State:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16

 
                      HOMELAND SECURITY BEYOND OUR
                    BORDERS: EXAMINING THE STATUS OF
                 COUNTERTERRORISM COORDINATION OVERSEAS

                              ----------                              


                       Thursday, October 4, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
                      Subcommittee on Border, Maritime, and
                                   Global Counterterrorism,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 311, Cannon House Office Building, Hon. Loretta Sanchez 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Sanchez, Harman, Jackson Lee, 
Cellar, Green, Souder, Reichert, McCaul, Bilirakis and 
Langevin.
    Ms. Sanchez. Good morning. The subcommittee will come to 
order.
    The subcommittee is meeting today to receive testimony on 
Homeland Security Beyond Our Borders: Examining the Status of 
Counterterrorism Coordination Overseas. I would like to thank 
our witnesses for appearing before us today. This hearing was 
originally scheduled for the end of July, and I appreciate your 
cooperation in rescheduling and getting in front of us.
    We are here today to discuss the important topic of 
counterterrorism coordination overseas. In this subcommittee's 
work on border security, maritime security, we spent a lot of 
time discussing the idea of pushing our borders out, and this 
concept involves performing critical Homeland Security 
functions abroad, like screening travelers and cargo before 
they arrive to the United States.
    As a result of these efforts, the Department of Homeland 
Security has about 1,300 employees from Customs, Border 
Protection, Immigration Customs Enforcement and Secret Service 
stationed abroad. These DHS employees perform critical work 
related to pushing our borders out. They also have the 
potential to make significant contributions to counterterrorism 
work for the Federal Bureau of Investigation, the Department of 
State and intelligence agencies.
    Unfortunately, the potential contribution of Homeland 
Security agencies to counterterrorism work abroad does not seem 
to be fully realized due to lack of coordination among all the 
agencies that I have just mentioned. And I am in particular 
concerned that after 6 years from 9/11, we are still struggling 
to coordinate our Nation's counterterrorism work.
    Congress passed the 2004 Intelligence Reform Act to try to 
address this problem, among many others. It requires that the 
National Counterterrorism Center, or NCTC, to coordinate the 
strategic operational planning for all of the government's 
counterterrorism efforts. And while I understand that NCTC has 
a general plan for this coordination from June of 2006, we have 
no information on the development of operational guidance for 
implementing that broad plan. And we have heard from agencies 
within the Department of Homeland Security that they have not 
received clear guidance from the Department or from NCTC on how 
to best coordinate counterterrorism work with other agencies. 
And quite frankly, that is unacceptable. As the committee who 
has oversight on this, we believe that NCTC must do a better 
job of coordinating those counterterrorism efforts. If people 
are out there, and they haven't received directive, we need to 
fix that.
    So I look forward to hearing from NCTC about the progress 
in developing the National Implementation Plan that would 
achieve this coordination. And I am also interested in hearing 
from our other witnesses about their agencies' experiences 
carrying out their counterterrorism missions. It is very easy 
to get caught up in jurisdictional battles. We have that here 
in the Congress, and we have seen it quite a bit. But when it 
comes to counterterrorism efforts, we really have to rise above 
that. We have to figure out what we have out in the field and 
how best we can utilize them to do really the number one thing 
that Americans expect us to do with respect to Homeland 
Security, and that is stop things from ever happening.
    So I thank you for being before us, and I will now ask my 
Ranking Member if he has an opening statement.
    Mr. Souder. Thank you very much. I do.
    The Committee on Homeland Security was specifically formed 
after the tragic events on September 11, 2001, in order to 
provide oversight and support to the new Homeland Security 
Department and to monitor our Nation's counterterrorism 
defenses. There is no doubt that Al-Qa'ida and related 
terrorist cells want access to America and our allies to carry 
out attacks, to raise money and to search for vulnerabilities. 
We have held hearings in the previous two Congresses on 
strengthening the security of our documents, disrupting 
smuggling organizations and establishing layered security to 
counter the terrorist threat.
    Today's hearing examines another important area: how U.S. 
law enforcement agencies work with each other and host nations 
overseas to deter and disrupt terrorism. The witnesses here 
today represent most of the major players and have between them 
over 128 years of government service.
    I appreciate your presence here today and your service to 
your country, but I would also like to express my appreciation 
to GAO for their efforts in the May 2007 report, Combating 
Terrorism: Law Enforcement Agencies Lack Directives to Assist 
Foreign Nations to Identify, Disrupt and Prosecute Terrorists, 
which examined the issue of counterterrorism coordination. They 
have been very helpful to the committee as we prepare for 
today's hearing.
    I want to hear from the witnesses on the issue of 
coordination of efforts and clarity of mission. I want to 
understand what additional resources and programs have been 
implemented since 9/11, as well as where we hope our overseas 
presence and what we hope it looks like in 5 years.
    I think the most important thing to examine today is the 
role intelligence plays, how it is shared, what impact does it 
have on operations and investigations, and where are the areas 
for improvement.
    Thank you, Madam Chair, for holding today's hearing. I look 
forward to working with you on these issues. And I yield back 
the balance of my time.
    Ms. Sanchez. And I thank my Ranking Member.
    Other members on this subcommittee are reminded that under 
the committee rules, opening statements may be submitted for 
the record.
    Ms. Sanchez. So I welcome our panel of witnesses. Our first 
witness is Mr. Michael Leiter, Principal Deputy Director of the 
National Counterterrorism Center. And prior to joining NCTC, 
Mr. Leiter served as the Deputy Chief of Staff for the Office 
of the Director of National Intelligence, where he assisted in 
the establishment of ODNI and coordinated all internal and 
external operations for ODNI, including relationships with the 
White House; the Departments of Defense, State, Justice, 
Homeland Security; the CIA and Congress. And he was also 
involved in the development of national intelligence centers, 
including NCTC.
    Welcome.
    And our second witness will be Ambassador Marisa Lino, 
Assistant Secretary for International Affairs with the 
Department of Homeland Security. And in that capacity, she 
plays a central role in developing the Department's 
international strategy and in formulating and implementing the 
Department's mission overseas. Ambassador Lino has 30 years of 
distinguished services in the Foreign Service, where she held 
overseas positions in Albania, Italy, Pakistan, Syria, Iraq, 
Peru, and she served as the Ambassador to the Republic of 
Albania from 1996 to 1999.
    Welcome.
    Our third witness is Mr. Gary Cote, Deputy Assistant 
Director for Immigration and Customs Enforcement, Office of 
International Affairs. Mr. Cote has 33 years of law enforcement 
experience, serving in numerous capacities with the former 
Immigration and Naturalization Service and ICE. Much of his 
work has focused on the growing problem of transnational 
crimes, with a nexus to the United States including organized 
crime, human trafficking and smuggling, as well as visa 
security matters.
    Welcome.
    Our fourth witness is Mr. Edgar Moreno, Assistant Director 
for Domestic Operations for the State Department's Bureau of 
Diplomatic Security, and in that capacity he is responsible for 
managing and directing Department of State activities within 
the United States, including all of the field officers, 
criminal investigations, counterintelligence and protection 
operations. And before his appointment in June of 2007, Mr. 
Moreno served as the Special Agent in Charge of the Miami field 
office, where he oversaw criminal investigative programs that 
focused on passport and visa fraud, interagency cooperation and 
asset forfeiture.
    Welcome.
    And our fifth and final witness is Thomas Fuentes, 
Assistant Director of International Operations at the Federal 
Bureau of Investigation. In that position he manages more than 
75 FBI offices in U.S. embassies and consulates worldwide. Mr. 
Fuentes has served in various positions at the FBI since being 
appointed a special agent in 1979, including Chief of the 
Organized Crime Section at FBI headquarters. He has also 
developed and managed several initiatives to combat 
international organized crime, and has represented the FBI on 
numerous international working groups.
    Welcome this morning also, Mr. Fuentes.
    So without objection, all of your full statements will be 
inserted into the record. And I now ask each witness to 
summarize his or her statement for 5 minutes. And we will begin 
with Mr. Leiter. Welcome.

  STATEMENT OF MICHAEL E. LEITER, PRINCIPAL DEPUTY DIRECTOR, 
                NATIONAL COUNTERTERRORISM CENTER

    Mr. Leiter. Thank you, Madam Chairwoman and Ranking Member 
Souder, distinguished members of the committee. Thank you very 
much for the opportunity to come and speak to the committee 
about NCTC's role in coordinating the war on terror.
    I would like to briefly try to address what NCTC does with 
respect to coordinating operations overseas, and more 
specifically our role in coordinating law enforcement 
activities. Before I do that, I want to again briefly describe 
the roles that NCTC plays consistent with the Intelligence 
Reform Act in 2004.
    NCTC is, in fact, responsible for planning and integrating 
all elements of national power for the U.S. Government in the 
war on terror. Our intent is to take the high-level strategic 
policy promulgated by the White House and translate that into 
coordinated actionable tasks for departments and agencies to 
pursue their own mission. The principal overarching result of 
this planning is, as the Chairwoman has stated, the National 
Implementation Plan, or NIP, which was approved by the 
President in June of 2006.
    I am going to very briefly describe some of the key 
elements of the NIP, but let me first note that there are four 
parts to the NIP, and the first element is attacking terrorist 
capability overseas. The second is countering violent Islamic 
extremism. The third is protecting and defending the homeland. 
And the fourth is avoiding terrorist acquisition of WMD. 
Supporting all of these is what we call a cross-cutting 
enabler, and that is, in fact, promulgating and supporting our 
foreign partners in a way our foreign partners can in turn 
support our efforts overseas.
    Second, each of those four components is supported by very, 
very specific tasks, and each of those tasks is given then to a 
department or agency that has responsibility for coordinating 
the interagency efforts. As we can talk about later, many of 
those actions involve overseas work involving law enforcement 
agencies, and others are, of course, coordinated by the 
Department of State, which plays that role as a matter of 
statute.
    Third, we not only plan, but we do, in fact, seek to 
coordinate and integrate the synchronization of all these joint 
departmental activities.
    Fourth, the NIP is a planning document that is also used by 
the Office of Management and Budget, and OMB, in conjunction 
with NCTC, works with the NIP to make sure that department and 
agency programs are, in fact, supporting the tasks and 
objectives of the NIP.
    Finally, I want to stress one thing that the NIP and NCTC 
does not do, and this is a matter of statutory direction. We do 
not direct operational activity. We are, in fact, responsible 
for strategic operational planning, but ultimately we rely on 
individual departments and agencies and their statutory 
authorities to carry out operations.
    With that, I would move briefly to how we specifically 
support efforts overseas and law enforcement more specifically. 
First, we put the highest priorities, as I have already noted, 
on working with our partners overseas. This is clearly the 
fight, the war on terror, that cannot be won by the U.S. 
Government alone. So much of our effort focuses on both 
enabling capability overseas and also doing operations where we 
are permitted by our host nation.
    Let me give you a quick example of where we do that, and 
one is trying to limit terrorist travel within and across 
borders. The NIP enables the tracking of potential terrorists 
as they move between nations to obtain training, recruit new 
terrorists, position themselves operationally or move money and 
equipment. And along these lines, the NIP encourages foreign 
partners to use all their means, criminal, economic, regulatory 
and intelligence, to ensure that we, in fact, get the support 
that we need.
    Now, within this broader effort again fall the subcategory 
of law enforcement activities. And again, law enforcement 
activities are a subcategory because in many instances in many 
countries it is quite difficult to distinguish between what is 
a law enforcement agency, what is an internal security agency 
and what is an intelligence operation. So we at NCTC try to 
take a broader view and work with all of our components, both 
our partners at this table and others. From my perspective, 
this partnership between NCTC and the agency sitting at this 
table works relatively well. Certainly overseas country teams, 
I believe, are quite well coordinated, and here in Washington 
we work very closely together.
    Now, that being said, I am not at all stating that we don't 
have a long way to go. Although we have a cohesive strategic 
plan that assigns individual cabinets and agencies 
responsibility, we continue to work both in Washington and 
overseas to make sure those partnerships are optimized. And we 
at NCTC are certainly committed to doing so, and we welcome the 
opportunity to come and brief the committee and its staff more 
fully on more specific and classified characteristics of the 
NIP.
    Ms. Sanchez. Great. I think we are going to need that 
classified hearing in order for us to do our work. Thank you 
for your testimony.
    [The statement of Mr. Leiter follows:]

                  Prepared Statement of Michael Leiter

    Chairman Sanchez, Ranking Member Souder, distinguished members of 
the Committee, thank you for the opportunity to discuss the role of the 
National Counterterrorism Center (NCTC) in regards to the status of US 
Government counterterrorism (CT) efforts overseas. My testimony 
addresses three points: (1) NCTC's overall role in coordinating the US 
Government's strategic plan for the War on Terror; (2) NCTC's more 
specific role in coordinating counterterrorism efforts overseas; and 
(3) how the coordination of Law Enforcement Agencies fits into the U.S. 
government's larger, counterterrorism efforts overseas.
    To begin I would like to summarize very briefly the role NCTC does-
and does not--play in coordinating the US Government's efforts in the 
War on Terror. Doing so is, I believe, especially important given the 
very innovative and groundbreaking nature of Strategic Operational 
Planning (SOP)--the rubric under which NCTC operates in this realm.
    NCTC, as directed by Congress and the President through the 
Intelligence Reform and Terrorism Prevention Act of 2004 (IRTPA), is 
responsible for strategic operational planning and integrating all 
elements of national power, for the US Government's efforts War on 
Terror (WOT). Our goal is to translate US counterterrorism policy and 
strategy into coordinated, actionable tasks for individual departments 
and agencies. The result our planning is a landmark document--the 
National Implementation Plan or NIP, which was approved by the 
President in June 2006--the first-ever US Government-wide strategic war 
plan for countering terrorism.
    This war plan does not stand alone. Rather, it complements two 
types of planning efforts that have long existed and continue to exist-
high-level national trategies directed by the President and the' 
National Security and Homeland Security Councils, and very granular and 
tactical department and agency-specific implementation plans. By 
filling this void between high level strategies and the efforts of 
individual departments and agencies, efforts, and the NIP in 
particular, are designed to fill a gap that previously hindered 
interagency coordination at a strategic level.
    Let me briefly describe five of the most critical characteristics 
of the NIP. First, the NIP groups all of the nation's efforts into four 
components: protecting and defending the Homeland and US interest 
abroad, attacking terrorists and their capacity to operate, countering 
violent extremism, and preventing terrorists' acquisition or use of 
weapons of mass destruction.
    Second, and of significant importance to both providing a 
relatively granular ``playbook'' and requiring accountability, each of 
these four component capabilities is supported by strategic objectives 
and specific tasks. Each of the tasks is assigned to a Cabinet-level 
officer for action and other Cabinet officers for support. Each 
department or agency is responsible for generating an individual 
supporting plan, which is to articulate how that element of the 
Government will execute the individual tasks for which it is assigned a 
lead role. In the cases where there are lead and supporting agencies, 
the lead agency is given the task of deconflicting each agency's plan.
    Third, our efforts do not stop at the planning stage. Rather, we 
also seek to ensure the coordination, integration, and synchronization 
of joint departmental operations, and monitor the combined impact of 
multiple agencies engaged in implementing the plans and tasks. As part 
of our responsibility, we assess how our plans are impacting the enemy 
so we may tailor them accordingly in the future: NCTC oversees a 
monitoring process requiring lead and partner departments and agencies 
to submit status reports on the execution of tasks, the level of 
interagency coordination, the identification of impediments, and 
adequacy of resourcing .
    Fourth, the NIP helps to guide resource allocation. Specifically, 
NCTC and the Office of Management and Budget have provided guidance to 
departments and agencies to ensure their budget requests (for FY-09) 
align with and will adequately resource priorities identified in the 
NIP, including a number related to USG efforts to expand foreign 
partnerships and partner capacity in the War on Terror.
    Finally, an important part about what the NIP--and the NCTC more 
boradly--does not do: Neither directs specific operations. In fact, the 
specifically prohibits the Director of NCTC from ``direct[ing] the 
execution of counterterrorism operations.'' This final note is of 
critical importance, for although NCTC is responsible for strategic 
operational planning, we must ultimately rely on individual departments 
and agencies--those organizations with explicit statutory authorities 
and responsibilities, as well as the greatest expertise and 
experience--to execute the tasks and activities necessary to execute 
the War on Terror.
    With that background, I would like to move to how NCTC participates 
in the coordination of overseas counterterrorism efforts in general and 
how we view Law Enforcement Agency (LEA) coordination more 
specifically.
    As the lead agency for coordination, integration, and 
synchronization of all US Counterterrorism (CT) efforts, NCTC puts the 
highest priority on the strategic coordination of overseas 
counterterrorism efforts in order to combat terrorism worldwide and, 
more specifically, to protect American lives. Although we and our 
allies have had tremendous successes in the War on Terror, we face a 
determined enemy. Protecting the homeland from another catastrophic 
attack requires more then simply a hardening of our borders; rather, we 
must work closely and tirelessly with foreign law enforcement, 
security, and intelligence agencies to identify, deter, detain, and 
prosecute terrorists operating within their domain.
    Last year's foiled United Kingdom aviation plot showed how vital 
the role of foreign partners are in preventing terrorist attacks on 
Americans. In that case, it was only with our foreign law enforcement 
and intelligence partners that we were able to monitor and track 
effectively terror plotters developing plans against the United States 
overseas. In the process, our foreign partners must perform a very 
difficult, but essential, balancing act: providing us with key 
intelligence on the advancement of plots while allowing for eventual 
detainment and successful prosecution of the plotters, all while 
providing the appropriate protection for civil liberties.
    The NIP directs both lead and partner departments and agencies to 
work together in a coordinated, integrated, and synchronized manner in 
order to cooperate with, and assist foreign partners in, a multitude of 
diverse ways. Expanding foreign capacity furthers each of the four NIP 
components. In simpler terms, expanding foreign capacity is a baseline 
capability that permits each of the four component strategic objectives 
to be achieved.
    Although I cannot go into extensive detail in open session as to 
the types of tasks that comprise this area within the NIP, I would like 
to offer several examples where developing foreign capacity is 
particularly important.
    As this Committee is well aware, countering the violent extremist 
message is of utmost importance to winning the War on Terror. In this 
regard, the NIP includes several tasks that relate to the need for US 
departments and agencies to work with foreign partners--LEAS and 
beyond--to combat extremist messaging and counter radicalization.
    The NIP also directs departments and agencies to help foreign 
partners build their capacity to limit terrorist travel, including 
crossing international borders. In addition, it seeks to ensure that 
these capabilities, as they are developed, link appropriately to US 
capabilities.
    Finally, I would note that the NIP highlights the importance of 
strengthening not only our foreign partners' capabilities, but also the 
willingness of those foreign governments to use all means at their 
disposal, to include economic, regulatory, and criminal sanctions. This 
point may seem obvious, but developing a capability serves little 
purpose if there is not an accompanying will to use that capability.
    Within the broader category of expanding foreign capacity falls a 
subcategory of activity--coordinating the overseas efforts of LEA's. As 
is the case with most of the NIP tasks that require overseas activity, 
the State Department is as a general matter charged with directing, 
managing, and coordinating all US Government efforts to develop and 
provide counterterrorism capacity within each host nation. The State 
Department--partnering with the law enforcement elements of the USGO--
is the best positioned department to lead our overseas coordination 
efforts.
    Every country has a unique intelligence and law enforcement 
structure. Domestic police and intelligence functions may be shared by 
a single entity or separated in a variety of organizational constructs. 
Moreover, the different foreign partners and their components have 
varied preferences as to how they desire to partner with the United 
States and its law enforcement and intelligence elements. The decision 
on how to cooperate must literally be made on a country by country 
basis. State serving as the lead for these tasks ensures that Chiefs of 
Mission around the world can fully and appropriately guide all US 
activities within the host nations.
    Within the broader mission of working with overseas partners in the 
War on Terror, the NIP recognizes the importance of US LEAs. Again, the 
NIP-in many of its specific tasks--gives lead authority to the State 
Department to coordinate the efforts of organizations like the FBI, 
DEA, ICE, CBP, and Secret Service to achieve the NIP's strategic goals. 
For example, the NIP focuses on building partner nation capacity to 
deny terrorists access to resources that facilitate travel. Thus, 
several agencies are tasked to work with foreign partners to identify 
and close down alien smuggling networks and document forgery cells. In 
this instance, as in most tasks associated with foreign partners, the 
State Department has the lead, but is partnered with the law 
enforcement agencies that bring the expertise and resources to carry 
out the NIP task.
    For greater specificity on how various coordinate their efforts--
both overseas and in Washington--I defer to my colleagues here today. 
Their Departments work together in a variety of contexts on a day-to-
day basis, conducting operations and developing foreign partner 
capacity critical to combating terrorism.
    None of what I have said here should be understood to mean that we 
no longer face real and significant challenges. We recognize the need 
to continuously monitor our progress, objectively evaluate our success, 
openly acknowledge our failures, and do all that we must to improve and 
mature our strategies, plans, and procedures in order to support an 
enduring counterterrorism capability. This is true for the broad 
mission of working with foreign partners, as well as the narrower 
mission of coordinating LEA activity.
    In closing, I would reiterate we have come a long way in the last 
two years. For the first time, we have a cohesive strategic plan that 
assigns individual cabinet departments action on an enormous array of 
tasks, many of which focus on working outside of the US with our 
foreign partners. In doing so, we aim to have a system wherein US LEAs 
can, where permitted, pursue operational activity with their foreign 
partners, as well as help those same foreign partners develop their own 
capabilities. And as core elements of government power, we at NCTC are 
committed to ensuring that LEAS--acting under the guidance of Chiefs of 
Mission all over the world--take coordinated action to protect the US, 
US interests, and our allies.

    Ms. Sanchez. And I now recognize the Ambassador. Welcome. 
Please, for 5 minutes.

STATEMENT OF MARISA R. LINO, ASSISTANT SECRETARY, INTERNATIONAL 
   AFFAIRS, OFFICE OF THE SECRETARY, DEPARTMENT OF HOMELAND 
                            SECURITY

    Ms. Lino. Chairwoman Sanchez, Ranking Member Souder, 
distinguished members of the committee, it is an honor to 
testify before you today. I was going to start by briefly 
introducing myself because I am new, but for the most part you 
have done that, Madam Chairwoman.
    I would simply add that after I retired from the State 
Department, I also spent 3 years in the academic world. I began 
at DHS in March of this year as an advisor to the Secretary on 
international affairs, and he named me in July as Assistant 
Secretary for International Affairs. My office is tasked with 
coordinating DHS's international activities and with providing 
policy guidance for international engagement.
    Obviously I believe it vitally important to develop close 
partnerships with our overseas counterparts and cooperative 
activities with our close allies in order to protect the 
homeland effectively. Terrorists look to exploit our 
vulnerabilities, so we must fashion an international response 
that goes beyond traditional cooperation for law enforcement. 
At the same time, it is vitally important to our economy to 
permit legitimate travel and commerce to proceed smoothly and 
with a minimum of obstacles.
    Capacity building as a means of addressing security 
vulnerabilities is one of the most cost-effective and lasting 
force multipliers for our efforts overseas. One way that DHS 
adds value is by providing a significant amount of 
international training and technical assistance to foreign law 
enforcement agencies in areas such as maritime security, border 
management, fraudulent document detection and so on. Virtually 
all of our training and technical assistance is work 
collaboratively with the State Department and other agencies in 
using State and DOD funding and subject to State and DOD 
priorities.
    DHS participates in a host of interagency committees and 
working groups with these same agencies. We work closely with 
State, DOD, Justice and others, both in the United States and 
overseas, in support of various overseas programs.
    As you have mentioned, we have significant numbers of 
personnel based overseas, but these are primarily in 
operational functions. They work collaboratively with other 
agencies in achieving their objectives. Since most are 
operational, they work in airports, at seaports, at border 
crossing points, working side by side with host government 
officials in programs such as the Container Security 
Initiative, the Immigration Advisory Program, the Port Security 
Program, the Visa Security Program and others.
    Our people are involved in a wide range of activities 
overseas from investigations of human smuggling and trafficking 
to financial crimes, to immigration fraud and human rights 
violations. Some of our people do work in embassies, where they 
are fully-fledged members of the Ambassador's country team.
    In my written testimony I have provided over a dozen 
examples of the types of activities which DHS personnel are 
engaged in overseas, some of which, as I mentioned, are work 
collaboratively with some of the other agencies at this table.
    In closing, I would add that in my few short months at DHS, 
I have been privileged to work with a group of incredibly 
dedicated and driven individuals, totally devoted to this 
country's safety and security. I was attracted to my position 
at DHS because the security of the homeland depends a great 
deal on our success in building international cooperation and 
partnerships. Throughout my professional career, I have worked 
on building bridges internationally, and it is an area in which 
I believe I have something to contribute. I am very proud that 
my office consists of an outstanding group of people who have 
already accomplished a great deal and are eager to do more, 
much more. I feel the same way about my interagency colleagues 
working on the same issues. The challenges we face together are 
great, but the consequences of not achieving our goals are even 
greater.
    I thank you for this opportunity to testify before you.
    Ms. Sanchez. Thank you, Madam Ambassador. And I thank you 
for your testimony.
    [The statement of Ms. Lino follows:]

                  Prepared Statement of Marisa R. Lino

    Chairwoman Sanchez, Ranking Member Souder, and Members of the 
Subcommittee, it is an honor to testify before you today on the subject 
of ``Homeland Security Beyond our Borders: Examining the Status of 
Counterterrorism Coordination Overseas.''
    As this is my first time appearing before the Subcommittee, I would 
like to introduce myself. I joined the Department as an advisor on 
international affairs March 5, 2007 and was appointed Assistant 
Secretary for International Affairs of the U.S. Department of Homeland 
Security by Secretary Michael Chertoff on July 23, 2007. The Office of 
International Affairs (OIA) is part of the Policy Office at DHS and has 
primary responsibility for international affairs at the Department. As 
such, OIA is charged with managing international activities and 
providing policy guidance on the direction of DHS international 
engagement to ensure that our overseas activities support fully the 
Department's goals and mission.
    In my statement I intend to touch on three themes: the security of 
the homeland depends on international cooperation and partnerships; we 
can build capacity in our partners by continuing to provide training 
and technical assistance; and we work cooperatively and coordinate 
effectively within the U.S. Government interagency.
    Let me begin by giving you a sense of the magnitude of the 
Department of Homeland Security's activities overseas. We have over 
1700 personnel assigned outside of the United States in approximately 
70 different countries. That may seem to be an extraordinarily high 
number for an agency devoted to securing the homeland from terrorist 
attacks and natural disasters, as well as responding to these attacks. 
However, I believe it fairly self-evident that to engage effectively in 
global counterterrorism we must work closely with our international 
partners.
    Much of what we do to protect the United States begins overseas and 
requires us to develop close partnerships with our counterparts and to 
establish cooperative activities with our allies. DHS international 
engagement is an extension of domestic policies and programs into the 
international arena. Of course, cooperation and coordination begin at 
home, within the U.S. Government, but I will comment further on that in 
a moment.
    Promoting international consensus and enhancing regional efforts to 
combat terrorism remain key priorities of this government. We view 
terrorism as a common threat that exploits shared vulnerabilities, 
requiring a concerted international effort across international borders 
and critical infrastructure. By partnering with our international 
friends and allies, we strengthen our nation's security, by reducing 
risk and building resiliency. At the same time, we are very cognizant 
of the need for such areas as travel and trade to prosper and therefore 
attempt to implement security efforts without undermining the ability 
of these systems to function.
    Our ``ounce of prevention'' does not begin at the U.S. coastline or 
border. It begins before a person sets foot on an airplane bound for 
the U.S. or before a container is loaded onto a ship bound for a U.S. 
port. Terrorism today is a globalized and networked phenomenon. Because 
we live in a globally interdependent society, the threat of terrorists 
continually trying to utilize the same assets, systems, and networks 
that we have deemed ``critical'' to our nation does not stop at our 
borders. Experience shows that terrorists do not respect international 
boundaries; do not feel restricted by them, and will attempt to exploit 
them in any way possible. So we are constantly engaged in the sharing 
of lessons learned and best practices for risk reduction; of creating 
better mechanisms for the sharing of threat information and 
intelligence; promoting joint law enforcement efforts; and working with 
our allies to develop international standards in areas such as aviation 
and maritime security.
    One way DHS adds value to the U.S. Government's overseas programs 
is by making available training and technical assistance to foreign law 
enforcement agencies based on the expertise developed through domestic 
operations. The recognized subject matter expert in the areas of 
maritime security, border management and fraudulent document detection, 
DHS currently provides a significant amount of training and technical 
assistance (T/TA) to foreign partners. In doing so, DHS relies on the 
priorities and parameters set by the funding agencies in delivering 
technical assistance to foreign governments and law enforcement 
organizations. The funding agencies ultimately determine the countries 
to receive assistance, the scope of work performed, and the 
programs'duration. Capacity building as a means to address security 
vulnerabilities before they threaten our shores is the most cost 
effective and lasting force multiplier to U.S efforts in combating 
terrorism.
    Interagency coordination and cooperation are key to achieving DHS' 
goals and objectives. As you well know, the lessons of 9/11 drove the 
creation of the Department I represent. It is precisely because we 
needed to coordinate our efforts and share information that personnel 
from 22 different agencies were merged into one DHS, in the largest 
U.S. Government reorganization since the 1947 National Security Act. 
The Department's mandate to protect the homeland against man-made and 
natural disasters was the vision driving that massive reorganization. 
The expansion of DHS's Office of International Affairs now provides the 
Department with the depth of staffing necessary to work with the 
interagency as an equal partner and contributor to the larger USG 
efforts abroad. My staff collaborates regularly with the Departments of 
State, Defense, Justice, Commerce and others in support of programs 
such as Export Control and Related Border Security Assistance (EXBS), 
International Military Education and Training (IMET) and Overseas 
Prosecutorial Development Assistance (OPDAT).
    Since the Department's founding in 2003, we have made enormous 
progress, which continues, in both internal and interagency 
coordination and cooperation. Today, you will find DHS representatives 
on a wide range of interagency working groups focused on countering 
terrorism. Examples include the Terrorist Financing Working Group, the 
Maritime Security Working Group, the Biometrics Coordination Group, and 
the National Implementation Plan Strategic Coordination Working Groups. 
We are equally determined to expand our overseas activities in areas 
where our contributions can have the greatest impact. For example, 
during the June 5--6 Counterterrorism Trilateral (United States, Japan, 
and Australia) Meeting, in which DHS participated in an interagency 
delegation led by the State Department, senior officials from DHS 
engaged in a series of discussions on collaborative capacity building. 
The group reached consensus on a number of capacity building work 
streams to enable countries in Southeast Asia to better respond to the 
threat of terrorism. Discussions consistently underscored the need for 
greater DHS investment and engagement in the region in capacity 
building where DHS has unique skill sets.
    Our overseas personnel aim at preventing acts of terrorism by 
interdicting the people, money and materials that support terrorist and 
criminal activities. They are engaged in activities from border and 
transportation security to customs investigations and refugee 
processing. Our programs include such major and important efforts such 
as the Container Security Initiative, the Immigration Advisory Program, 
the Port Security Program, the Visa Security Program and the Pre 
Clearance Program.
    Virtually all our overseas personnel are operational, not 
representative, and they engage directly in programs run by one of DHS' 
components. Among DHS components, the Immigration and Customs 
Enforcement (DHS-ICE), the Customs and Border Protection (DHSCBP), the 
U.S. Coast Guard (DHS-USCG) and the U. S. Secret Service (DHS-USSS) 
have the most substantial international programs and presence overseas, 
although the Transportation Security Administration (DHS-TSA), the U.S. 
Citizenship and Immigration Service (DHSUSCIS) and the U.S. Visitor and 
Immigrant Status Indicator Technology Program (US-VISIT) have 
international activities and personnel overseas as well.
    Some of our overseas personnel are assigned to embassies; the rest 
work in locations related directly to their programs: airports, sea 
ports, border crossing stations, and so on. Our law enforcement 
personnel overseas, including DHS-ICE, DHS-CBP and DHS-USSS, are 
involved in a wide range of activities, including: investigations of 
human smuggling and trafficking; narcotics, weapons and all other 
contraband smuggling; export enforcement, such as investigating illegal 
arms exports and exports of dual-use equipment that may threaten 
national security; financial crimes, such as money laundering, 
commercial fraud, intellectual property rights (including commercial 
counterfeiting) violations; cyber crime; immigration fraud; and human 
rights violations.
    DHS personnel provide the critical link for the U.S. Government in 
cooperative efforts with partner nations as we build networks to 
disrupt terrorist goals and activities. Our own goals and objectives 
are simple and straightforward. We aim to continue to protect our 
nation from dangerous people and dangerous goods; we seek to continue 
to protect the critical infrastructure of our nation; we work to build 
a culture of preparedness; and we strive to strengthen and unify DHS 
operations.
    As I have said, some of our overseas personnel work in embassies; 
approximately 150 senior DHS representatives are the DHS lead for 
interagency coordination and cooperation. They are fully-fledged 
members of the Embassy Country Team, and as such, respond to the 
Ambassador's overall direction as well as to their respective DHS home 
offices in the U.S.
    Coordination and cooperation overseas is a two-pronged effort. 
Clearly, the Ambassador, as the President's personal representative, 
provides guidance on how the Country Team will operate and how best to 
approach a host government on counterterrorism efforts. That leadership 
is the key to ensuring that disparate agencies in the mission 
collaborate effectively. In Washington, the agencies of the U.S. 
Government involved in counterterrorism activities strive through the 
interagency process to provide our people in the field guidance on best 
approaches. Is either part of this two-pronged effort perfect? Of 
course, the answer is no. However, I can tell you that in the few short 
months I have been at DHS, I have seen no sign of complacency. On the 
contrary, I feel honored to work with a group of incredibly dedicated 
and driven individuals, totally devoted to this country's safety and 
security. I feel the same way about my interagency colleagues working 
on the same issues, be they from any agency of the U.S. Government. The 
challenge we face together is great, but the consequences of not 
achieving our goals are even greater.
    A few simple numbers tell the story very clearly of what we are 
facing. I may be repeating some facts and figures you have heard 
before, but I believe describing the magnitude of the problems we are 
dealing with provides important context for the issue we are discussing 
today: every year, more than 500 million people, 130 million motor 
vehicles, 2 1/2 million railcars, and more than 11 million containers 
are processed at our land borders, airports and 317 sea ports. These 
staggering numbers demonstrate better than any selected examples might 
do that the United States forms part of a critical global economic 
network, requiring an international dimension to all of DHS' efforts to 
secure the homeland. Security does not start at our land, air, sea 
border.
    In the spirit of better describing for you what our overseas 
personnel are doing, I would like to cite a few examples of their 
excellent work and activities:
        <bullet> This fiscal year alone, the DHS-ICE Forensic Document 
        Laboratory (FDL) has trained more than 1,900 individuals in 
        locations all over the world, including the United States, 
        South Africa, El Salvador, Botswana, Jordan, Trinidad & Tobago, 
        Kenya, Turkey, and Yemen. The FDL is the premier forensic 
        document laboratory in the world and is a forensic crime 
        laboratory dedicated to fraudulent document detection and 
        deterrence. Providing a wide variety of forensic and support 
        services to all DHS components, the FDL also supports other 
        federal, state, and local agencies, as well as foreign 
        government law enforcement and border control entities. The FDL 
        is an integral part of a comprehensive approach to disrupting 
        terrorist travel and works both domestically and 
        internationally to strengthen international travel documents. 
        Real-time support is provided 24 hours a day, 365 days a year 
        to assist all federal, state, and local law enforcement 
        officers with questioned documents.
        <bullet> The Customs--Trade Partnership Against Terrorism 
        Program (C-TPAT) is an element of a continuum of supply chain 
        security through which DHS-CBP and members of the international 
        trade community have been working together successfully to 
        implement measures to secure the global supply chain. Further, 
        DHS-CBP is working with foreign governments to establish and 
        mutually recognize similar programs around the world. Mutual 
        recognition pilot projects currently include New Zealand, 
        Jordan, and members of the European Union.
        <bullet>DHS-TSA has initiated a Cross Border Pipeline 
        Assessment Program that requires the United States and Canada 
        to conduct visits to critical cross-border pipeline 
        infrastructure, identify security gaps, and recommend 
        protective measures to mitigate those gaps. In addition, TSA 
        has partnered with Natural Resources Canada to assess four 
        pipeline systems to date. As of June 2007, approximately 85 
        percent of the country's natural gas pipeline systems have been 
        evaluated.
        <bullet>DHS/Office of Infrastructure Protection conducted 
        several joint risk assessments with their Canadian and Mexican 
        counterparts on cross-border critical infrastructure. They 
        responded to the recent events in London by immediately 
        deploying a team of experts from their Office of Bombing 
        prevention to add their expertise. Additionally they have been 
        able to bring international attention to the importance of 
        critical infrastructure protection is such multi-lateral forums 
        as the G8, OAS, and the EU.
        <bullet>The Coast Guard manages the International Port Security 
        (IPS) Program which seeks to promote improved foreign port 
        security by engaging in bilateral and multilateral discussions 
        with trading nations in order to share and align maritime 
        security practices. The program assesses the anti-terrorism 
        measures in place in foreign ports through IPS Program visits 
        to see how these ports meet the internationally accepted 
        standard (the International Ship and Port Facility Security 
        Code). Employing a team of uniquely trained port facility 
        security specialists, the Coast Guard IPS Program has visited 
        100 countries since 2004. These 100 countries are responsible 
        for over 80% of the vessel arrivals to the United States. The 
        remaining 45 country visits will be completed by early CY 2008.
        <bullet>The implementation of DHS-CBP's Immigration Advisory 
        Program (IAP), which provides for the deployment of DHS-CBP 
        officers to some of the largest, busiest airports around the 
        world, to work with foreign immigration authorities and air 
        carriers, to target and identify airline passengers who may 
        pose a terrorist threat or are otherwise inadmissible before 
        they can enter the United States. DHS-CBP currently has IAP 
        representatives stationed in London, Tokyo, Warsaw, and 
        Amsterdam and is working with other governments to expand our 
        IAP representation to other critical airports.
        <bullet>DHS-ICE's Visa Security Program (VSP), a 
        counterterrorism program in 9 posts in 8 countries, performs 
        proactive law enforcement vetting and investigation of visa 
        applicants and works to uncover threats to homeland security. 
        The goal is to identify not-yet-known terrorist or criminal 
        suspects and stop them before they get to the United States. In 
        one recent case, following interviews and vetting activities, 
        VSP identified a relationship between a visa applicant and 30 
        individuals, 24 of them not-yet-known to the USG, who were 
        closely tied with known terrorist associates and subjects of 
        Joint Terrorism Task Force (JTTF) investigations. As an 
        outcome, Department of State and VSP created multiple new 
        terrorist watchlist records. To further its mission, VSP has 
        developed a five-year expansion plan that will cover 75% of the 
        highest-risk visa activity globally and increase the VSP 
        footprint to more than 140 resources in over 40.
        <bullet>DHS-CBP has been working through the World Customs 
        Organization to draft, adopt and implement the Framework for 
        Security and Facility in the Global Environment (SAFE Framework 
        of Standards). This Framework of Standards is being used by 144 
        nations to leverage customs authorities and resources to secure 
        and facilitate international trade--and protect global supply 
        lines from being used by terrorists to transport weapons. The 
        Framework calls for a common approach to risk management, the 
        use of advance data and non-intrusive inspection technology and 
        partnerships between customs authorities and with members of 
        the international trade community to secure the global supply 
        chain.
        <bullet>DHS-ICE and DHS-USSS worked with the Mexican 
        authorities on a major case in Mexico City following the 
        seizure of almost $5 million in laundered monies, which was 
        believed to be counterfeit and later deemed to be legitimate. 
        The money, hidden in air conditioning equipment, was seized by 
        Mexican Customs, working with DHS-ICE.
        <bullet>DHS-ICE has achieved significant progress in working 
        with other countries to implement speedy processing of the 
        repatriation of illegal aliens. In Fiscal Year 2006, DHS-ICE 
        removed 192,171 illegal aliens, including 88,217 criminals, a 
        13 percent increase in total removals and a four-percent 
        increase in criminal removals over the prior Fiscal Year. DHS-
        ICE officials have encouraged non-cooperating countries to 
        issue travel documents. The DHS-ICE Electronic Travel Document 
        Program has shortened the processing and detention times for 
        removal of aliens.
        <bullet>For over nine years, DHS-USSS has investigated the 
        counterfeiting of U.S. currency and other U.S. payment and 
        identity documents manufactured in Bulgaria. In December 2001, 
        the USSS began a new chapter in its Bulgarian counterfeit 
        investigations when the Bulgarian National Bank notified them 
        of the deposit of very high quality counterfeit U.S. Federal 
        Reserve Notes. Thorough forensic analysis of these counterfeit 
        notes revealed they were allied to a similar family of 
        counterfeit notes, which the U.S. media had previously dubbed 
        as the ``Supernote.'' The ``Supernote'' investigation is one of 
        the Service's most important international cases.
        <bullet>DHS-ICE, DHS-CBP and DHS-USCG participate in Integrated 
        Border Enforcement Teams (IBETs) with their Canadian 
        counterparts, the Royal Canadian Mounted Police (RCMP) and 
        Canadian Border Security Agency (CBSA) along the U.S.-Canadian 
        border. IBETs aim to enhance shared border integrity and 
        security between ports of entry by identifying, investigating 
        and interdicting persons, organizations and goods that threaten 
        the national security of one or both countries, or that are 
        involved in organized criminal activity.
        <bullet>Each year, the Coast Guard deploys approximately 100 
        Mobile Training Team (MTT) missions to an estimated 50 
        countries, hosts an average of 300 international resident 
        students in Coast Guard schoolhouses located in the U.S., and 
        responds to more than 400 requests for technical assistance in 
        the form of subject matter experts. These international 
        training efforts created force multipliers for U. S. strategic 
        goals by developing proficient officer and enlisted corps among 
        partner nations and by inculcating in foreign partners the need 
        for an interagency response to crisis management scenarios.
        <bullet>DHS-Policy and US-VISIT are working with international 
        partners Australia, Canada, and the U.K. (Four Country 
        Conference) to improve transnational immigration and border 
        security methods and processes. Efforts to this end include 
        analysis of data sharing arrangements; study of the business, 
        policy, legal, process and technical aspects of biometric data 
        sharing; discussion of identity management processes; analysis 
        of risk assessment capabilities and best practices; and 
        improved communication of watchlists. This multinational 
        coordination and cooperation effort improves and strengthens 
        our ability to identify individuals who are threats to the 
        homeland.
        <bullet>In support of DHS components' and other Federal 
        agencies' law enforcement and counterterrorism missions, DHS' 
        Federal Law Enforcement Training Center (FLETC) provides 
        international training and technical assistance to foreign 
        police and criminal justice officers and officials. FLETC 
        presents advanced and basic law enforcement programs overseas, 
        administers an International Visitors Program that hosts 
        foreign delegations visiting our training sites, and processes 
        individual foreign student requests to participate in law 
        enforcement training offered by FLETC. FLETC has management 
        oversight for the International Law Enforcement Academies in 
        Botswana and El Salvador, and provides support to the ILEAs in 
        Hungary and Thailand.
        <bullet> I would like to wrap up my three themes by giving you 
        my very personal perspective on these issues. You all know very 
        well the Department was established just over four years ago. 
        It is a work in progress and there is still much to do, but not 
        for lack of effort on the part of many good people who care 
        deeply about the safety and security of our nation. I was 
        attracted to my position at DHS because the security of the 
        homeland depends a great deal on our success in building 
        international cooperation and partnerships. Throughout my 
        professional career I have worked on building bridges 
        internationally and it is an area where I believe I have 
        something to contribute. I am also fortunate that my office 
        consists of an outstanding group of people who already have 
        accomplished a great deal and are eager to do more. With 
        respect to our overseas presence, we still have work to do in 
        building a unified DHS. I have met with the DHS teams in Tokyo 
        and Beijing and I have been impressed by the team spirit and 
        approach. But more needs to be done. Our international presence 
        and our international activities are the frontline of our 
        security. Last, but not least, interagency cooperation is 
        critical to success in our efforts overseas and I believe all 
        of us at DHS work hard to make this happen.
    In closing, I would remind all that terrorism is not a threat we 
face alone. As we have seen around the world--in London, in Bali, 
Madrid, Riyadh and Islamabad--terrorism is a threat faced by all 
countries. In the same way, we cannot win this war alone; we need our 
friends and allies to cooperate with us to win. They fight the same 
threat, face the same risks and oppose the same enemy.

    Ms. Sanchez. I now recognize Mr. Cote to summarize your 
statement for 5 minutes.

     STATEMENT OF GARY L. COTE, DEPUTY ASSISTANT DIRECTOR, 
              IMMIGRATION AND CUSTOMS ENFORCEMENT

    Mr. Cote. Madam Chairwoman, my comments are included with 
Ambassador Lino's as part of the DHS.
    Ms. Sanchez. That is brief.
    And I now recognize Mr. Moreno to summarize his statement 
for 5 minutes.

    STATEMENT OF EDGAR MORENO, ASSISTANT DIRECTOR, DOMESTIC 
 OPERATIONS, BUREAU OF DIPLOMATIC SECURITY, DEPARTMENT OF STATE

    Mr. Moreno. Good morning, Chairwoman Sanchez and members of 
the committee. I am honored here to appear before you today 
with my distinguished colleagues.
    Counterterrorism coordination, security overseas and the 
task of limiting terrorists from accomplishing goals is of 
paramount concern to Diplomatic Security. With a regional 
security office representing at 285 posts worldwide and 25 
domestic offices, Diplomatic Security is uniquely represented 
in the most represented U.S. law enforcement organization in 
the world.
    Our law enforcement network includes 1,500 special agents 
who are assigned both overseas and domestically. And overseas, 
our agents serve as the primary law enforcement contact to 
foreign government and law enforcement authorities.
    Providing security for our diplomatic interests requires a 
multiagency and coordinated approach. Ambassadors can use two 
options, an Emergency Action Committee and Law Enforcement 
Working Groups, in an overseas post to coordinate activities of 
all law enforcement agencies. First, the Emergency Action 
Committee is a group of senior-level officers representing all 
U.S. Government agencies at posts that provides the Ambassador 
guides in preparing for and responding to threats and other 
crises at post or against U.S. interests abroad. Diplomatic 
Security and the other Federal law enforcement agencies also 
can participate in Law Enforcement Working Groups at U.S. 
missions abroad, and these groups work with the goal of 
improving information sharing, coordination among various law 
enforcement components.
    One of the most critical national security challenges our 
country faces is the desire for terrorists to inflict 
catastrophic harm to the United States and our citizens. Access 
into the U.S. requires the acquisition of travel documents, 
including visas and passports, to allow terrorists to enter and 
move freely within our borders.
    As the law enforcement arm of the Department of State, 
Diplomatic Security is responsible for upholding the integrity 
of the U.S. visa and passport documents. Our partnership with 
the Bureau of Consular Affairs and worldwide presence makes us 
the go-to agency for the investigation of U.S. passport and 
visa fraud.
    Last year Diplomatic Security crafted the Visa and Passport 
Security Strategic Plan that leverages our international 
expertise and worldwide presence. Our approach incorporates the 
principles of the National Strategy to Combat Terrorist Travel 
and addresses the objectives for Intelligence Reform and 
Terrorist Prevention Act of 2004.
    In addition, Diplomatic Security incorporates four other 
programs for a multiple-directional approach designed to combat 
terrorist activities. First, Diplomatic Security's Awards for 
Justice Program. Rewards for Justice is currently offering up 
to $25 million for the capture of or information leading to 
Osama bin Laden and other key Al-Qa'ida leaders. Through these 
efforts, the Awards for Justice Program, international 
terrorists and other most wanted persons have already been 
brought to justice, including Ramzi Yousef, the bomber of the 
World Trade Center in 1993; and Mir Aimal Kansi, who killed two 
CIA employees and injured three others in 1993; and Uday and 
Qusay Hussein, Saddam Hussein's sons, killed in July 2003.
    Second, through the Antiterrorism Assistance Program, 
Diplomatic Security is building a global network of host 
government experts dedicated to assisting us combat terrorism 
and safeguard the conduct of U.S.--the diplomacy, diplomatic 
personnel facilities and information around the world. At the 
present time, the ATA, or Antiterrorism Assistance Program, has 
trained over 55,000 foreign counterparts from over 80 
countries.
    Third, the Overseas Security Advisory Council, or OSAC, 
also established in 1985, provides an ever-evolving mechanism 
for the sharing of security expertise and information between 
the Department and the private sector. OSAC services over 4,500 
private-sector organizations composed of U.S. businesses, NGOs, 
faith-based organizations, academic institutions that, in 
conjunction with the Department of--the Bureau of Diplomatic 
Security create an information-sharing platform for security 
issues of concern to the U.S. private sector.
    Lastly, our Major Events Coordination Unit helps address 
future worldwide security needs surrounding major events that 
has U.S. representation overseas. Diplomatic Security recently 
provided security resources to the Pan Am Games in Rio de 
Janeiro, the G-8 meeting in Japan, and we are currently 
preparing for the 2008 Summer Olympics in Beijing.
    In summary, cultivating and developing partnerships with 
other U.S. Government law enforcement agencies, the 
Intelligence Community and in particular host government law 
enforcement elements are critical to defending our homeland. 
The Bureau of Diplomatic Security leverages all available 
resources in contributing to the coordination of overseas 
counterterrorism efforts. With our combined efforts and your 
assistance, I am confident that we can succeed and will 
succeed.
    Chairwoman Sanchez, I thank you and the other members of 
the committee for being given the opportunity to appear this 
morning. I have submitted a written formal statement with 
additional information that can be used as a reference. I would 
now be happy to answer any of your questions and appreciate 
your time. Thank you.
    Ms. Sanchez. Thank you, Mr. Moreno.
    [The statement of Mr. Moreno follows:]

                   Prepared Statement of Edgar Moreno

    Good Morning Chairwoman Sanchez and members of the Committee.
    It is my honor to appear before you today with my distinguished 
colleagues. I would like to thank you and the Committee members for 
your continued support and interest in the Bureau of Diplomatic 
Security's (DS) protective and investigative programs. Through 
Congressional support, DS safeguards American diplomats, facilities, 
and information around the world. Counterterrorism coordination, 
security overseas, and the task of limiting terrorists from 
accomplishing their goals is of paramount concern to DS and requires a 
multi-agency effort for success.
    As the most widely represented law enforcement organization in the 
world, DS is the primary U.S. law enforcement contact for foreign 
government and law enforcement authorities at 285 State Department 
posts worldwide. Our presence includes nearly 1,450 Special Agents 
dispersed among 25 field and resident offices domestically, with 
representation on 26 Joint Terrorism Task Forces, and assignments to 
U.S. embassies and consulates in 159 countries. DS Agents serving 
around the world in embassy and consulate Regional Security Offices 
manage the security programs that ensure the safety and security of 
U.S. Government personnel, facilities, and classified information.
    DS's efforts can manifest themselves at any time or any place 
around the globe. In May and June 2006, when a rupture between the 
national Government and security services of East Timor resulted in 
heavy fighting, DS agents at the U.S. Embassy in Dili assisted with 
emergency preparedness and response, including the evacuation of U.S. 
citizens to Australia. Later in the summer, DS agents on the ground in 
Beirut, Damascus, Ankara, Tel Aviv, and Nicosia, along with other 
Department of State employees, were critical elements in the safe 
evacuation of nearly 15,000 American citizens from Lebanon during the 
conflict between Israel and Hezbollah.
    It is important to note that providing security for our diplomatic 
interests from all possible threats overseas requires a multi-agency, 
coordinated approach. To ensure effective utilization of the law 
enforcement and intelligence tools at their disposal, Ambassadors 
utilize Emergency Action Committees (EACs) and Law Enforcement Working 
Groups (LEWGs) at overseas posts to coordinate the activities of all 
participating agencies.
    The EAC is a group of senior-level officers representing all U.S. 
Government agencies at post. The EAC provides the Ambassador or 
principal officer with guidance in preparing for and responding to 
threats, emergencies, and other crises at post or against U.S. 
interests elsewhere. Each post is responsible for preparation of the 
Emergency Action Plan, which is designed to provide procedures and 
protocols for just about any type of unforeseen event. It identifies 
actions the post, Department, and other Federal agencies might take to 
mitigate and manage an emergency or threat to U.S. interests.
    Additionally, to better coordinate U.S. law enforcement efforts 
overseas, DS and other Federal law enforcement agencies participate in 
LEWGs at U.S. missions abroad. These working groups will fulfill a role 
similar to their domestic Joint Terrorism Task Force counterparts, with 
the goal of improving information sharing and coordination among 
various law enforcement components.
    One of the most critical national security challenges our country 
will face for the foreseeable future is the desire of terrorists to 
inflict catastrophic harm to the United States and our citizens. A key 
element in all terrorist operational planning is access to their 
target. Such access necessitates the acquisition of travel documents 
(including visas and passports) that allow terrorists to enter and move 
freely within our borders.
    As the law enforcement arm of the U.S. Department of State, DS is 
responsible for upholding the integrity of U.S. visa and passport 
documents. Our partnership with the Bureau of Consular Affairs (CA) and 
worldwide presence make DS uniquely positioned to meet the serious 
national security challenge of travel-document fraud and to be the 
premier agency for the investigation of U.S. passport-and-visa fraud.
    Terrorists attempt to discover, manipulate, and exploit 
vulnerabilities within our travel document system. To successfully 
counter this threat, DS, last year, crafted the Visa and Passport 
Security Strategic Plan that leverages our international expertise and 
worldwide presence. The Plan provides the framework for the worldwide 
Visa and Passport Security Program that will significantly augment the 
Department's ongoing efforts to prevent terrorist travel. Our approach 
incorporates the principles of the National Strategy to Combat 
Terrorist Travel and addresses the objectives of the Intelligence 
Reform and Terrorism Prevention Act of 2004.
        The Plan is built upon a cornerstone of three strategic goals:
        <bullet> To defend the homeland and our foreign partners from 
        terrorist attack through aggressive and coordinated 
        international law enforcement action;
        <bullet> To detect terrorist activity, methods, and trends that 
        exploit international travel vulnerabilities; and
        <bullet> To disrupt terrorist efforts to use fraudulent travel 
        documents through strengthening the capacities of foreign 
        partners.
    This three-tiered approach has resulted in the deployment of 
additional DS Special Agents overseas. They are responsible for 
conducting passport-and-visa-fraud investigations in-country, working 
with host government law enforcement authorities to identify potential 
terrorist travel, and to disrupt existing in-country criminal networks. 
Through our close working relationships with host government law 
enforcement authorities, DS was able to strengthen host country 
resources through Department of State-sponsored antiterrorism training.
    Currently, DS has 33 Special Agents assigned to key posts whose 
sole duty is to investigate travel-document fraud and to ensure the 
integrity of the consular process. By the end of 2008, DS will have 50 
agents in 48 overseas posts to serve in such a capacity. DS 
investigations with our foreign law enforcement colleagues and fraud 
prevention training of more than 7,800 foreign law enforcement and 
security personnel has yielded great success. Since 2004, these efforts 
have resulted in nearly 1,285 arrests for document fraud and related 
offenses, almost 4,200 visa refusals and revocations, and over 450 
refusals of U.S. passports and consular record-of-birth-abroad 
applications.
    The following are just a few specific examples of the Visa and 
Passport Security Program's success:
    Operation Triple X--DS Special Agents in Surabaya, Indonesia, 
partnered with the State Department's Bureau of Consular Affairs and 
the Indonesian National Police on Operation Triple X, an investigation 
that shut down 12 major criminal syndicates that produced and sold 
counterfeit U.S. visas and other fraudulent documents for illegal entry 
into the United States. The investigation, which resulted in 84 
arrests, including that of an Indonesian immigration official, revealed 
that more than 2,000 individuals had used the services of these 
criminal syndicates, which had ties to terrorist extremists. All 84 
individuals arrested were charged and convicted under Indonesian fraud 
statutes.
    Human Smuggling Rings--As a result of a 17-month investigation that 
was initiated by a facial recognition hit in the consular section at 
the U.S. Embassy in Bogota, Colombia, the Colombian Administrative 
Department of Security (DAS), in conjunction with the DS and 
Immigration and Customs Enforcement (ICE) Attaches Office, conducted a 
coordinated takedown of a human smuggling ring in Cali, Colombia. At 
the conclusion of the takedown, a total of 19 arrests were made. These 
arrests included five active members of the human smuggling ring, two 
false applicants, and 12 medical doctors who had conspired with the 
organization.
    Document Fraud U.S. Entry Requirements Training--DS Agents and CA's 
Fraud Prevention Unit in Caracas conducted a Document Fraud and U.S. 
Entry Requirements training course for over 250 airline employees. The 
training session, conducted with the assistance of the Customs and 
Border Protection Carrier Liaison Program, focused on U.S. travel 
documents, entry requirements, document fraud, and fraud indicators.
    Fraud Training--DS Agents in Tel Aviv developed a working agreement 
with the Israeli Ministry of Interior and the Israel National Police to 
provide anti-fraud training to new police recruits at various locations 
throughout Israel and at Ben-Gurion International Airport.
    Strengthening Visa Security--DS Agents, in coordination with other 
Embassy officials, have been working with Guatemalan Government 
officials to strengthen the security of their visas and visa-issuance 
processes. This process will not only minimize host country 
vulnerability to document fraud, but also strengthen the U.S. consular 
process against those same vulnerabilities.
    International Law Enforcement Academy (ILEA) Training--DS Agents 
traveled to the ILEA in Budapest, Hungary, in February of 2007 to teach 
a course on Diplomatic Security and document fraud. Present at the 
course were 48 police officers from the Ukraine, Georgia, and 
Azerbaijan.
    In addition to DS's Visa and Passport Security Program, DS 
incorporates a variety of other programs in a multi-directional 
approach designed to combat terrorist activities. These include:
        <bullet> The Rewards for Justice Program;
        <bullet> The Antiterrorism Assistance Program;
        <bullet> The Overseas Security Advisory Council; and
        <bullet> Major Events Coordination Unit.

Rewards for Justice
    DS is the operational component for the Rewards for Justice (RFJ) 
Program, which was established by the 1984 Act to Combat International 
Terrorism. RFJ continues to be one of the most valuable U.S. Government 
assets in the fight against international terrorism. RFJ is currently 
offering rewards of up to $25 million dollars for the capture of, or 
information on, Usama bin Ladin and other key al-Qa'ida leaders. 
Through the efforts of RFJ, international terrorists and other most 
wanted persons have been brought to justice, including Ramzi Yousef, 
the bomber of the World Trade Center in 1993; Mir Aimal Kansi who 
killed two CIA employees and injured three others in 1993; and Uday and 
Qusay Hussein, Saddam Hussein's sons, killed July 22, 2003.
    The goal of RFJ is to find creative ways to educate the public 
regarding wanted terrorists--in essence putting their names and faces 
before the public eye--and encourage potential sources to provide 
information that might help bring these terrorists to justice or 
resolve prior acts of terrorism against U.S. persons or property. Such 
methods may include television, radio, newspaper, or other media 
advertisements. Other advertising concepts used by RFJ include the use 
of banner ads on websites and distributing posters and matchbooks in 
areas where featured terrorists are believed to be hiding. RFJ's 
website (www.rewardsforjustice.net), a key component in RFJ's outreach, 
was recently expanded from four to 25 languages, with plans to add more 
languages in the coming year. The entire website was redesigned and 
launched on July 17, 2007.
    DS's RFJ Program continually works with the CIA, DoD, FBI, and U.S. 
embassies around the world, adding new terrorists who pose a threat to 
U.S. persons and/or property to the RFJ Most Wanted List. RFJ 
coordinates with its interagency partners to ensure that the identities 
of sources are kept strictly confidential and to arrange the actual 
reward payment. RFJ currently has active public campaigns in 
Afghanistan, Colombia, Comoros Islands/Madagascar, Greece, Iraq, and 
the Philippines. At this time, RFJ is actively working to expand its 
operations into the Horn of Africa, Pakistan, and other countries in 
Southeast Asia. These efforts are closely coordinated with DoD's 
regional commands and Special Operations Command, whose Military 
Information Support Teams support RFJ's advertising efforts in key 
frontline nations. To date, RFJ has paid over $72 million to more than 
50 people who provided actionable information that helped bring 
terrorists to justice or prevented acts of international terrorism.

Antiterrorism Assistance:
    The events of September 11 demonstrated the need to maximize 
training opportunities, particularly for those designated as frontline 
countries in the War on Terror. It has resulted in Congressional 
approval of a significant expansion of the Antiterrorism Assistance 
(ATA) Program, both in terms of course offerings and numbers of 
participants.
    Through the ATA Program, DS is building a global network of experts 
dedicated to combating terrorism and safeguarding the conduct of U.S. 
diplomacy, diplomatic personnel, facilities, and information around the 
world.
    Through training programs for foreign law enforcement and security 
professionals, DS builds alliances with security services worldwide and 
bolsters the counterterrorism capabilities of our foreign partners. 
Many of these efforts achieved synergy through a coalition of willing 
and able governmental and nongovernmental partners in the international 
law enforcement community.
    Bomb technicians trained by DS helped the Indonesian Special 
Detachment Task Force 88 Unit in an operation in which two terror 
suspects were killed, one was wounded, and a fourth was taken into 
custody. The operation uncovered explosive backpacks, suicide vests, 
and other explosive devices and components. The explosives were 
rendered safe by DS-trained explosives experts.
    Training and assistance from DS helped Pakistan's Special 
Investigative Group (SIG) develop into an elite counterterrorism force. 
In 2006, the SIG arrested a Belgian citizen in Lahore who was plotting 
a suicide attack against the President of the United States. In 
Peshawar, the SIG investigated and raided a terrorist financing office, 
uncovering evidence that can be used in the prosecution of suspected 
terrorists. Because of the training and assistance from DS, the SIG 
helped the Federal Bureau of Investigation investigate the suicide 
bombing which resulted in the death of a Foreign Service officer at the 
U.S. Consulate in Karachi.
    Because of its DS training, the Special Operations Unit of the 
Albanian State Police played a key role in a joint investigation with 
the Albanian Organized Crime Directorate directed against weapons 
trafficking. The operation resulted in the detention of five 
individuals, including three police officers, and subsequent searches 
of nine residences for illegal weapons.
    In January 2006, DS began providing personal protection for the 
first democratically elected president of an African state, Ellen 
Johnson-Sirleaf, President of Liberia. Remaining in Monrovia until June 
2006, DS agents also trained 325 Liberian personnel for that country's 
presidential protective service.

Overseas Security Advisory Council
    The Overseas Security Advisory Council (OSAC), which was 
established in 1985, provides an ever-evolving mechanism for the 
sharing of security expertise and information between the Department 
and the private sector.
    While the United States has bolstered security at our political, 
diplomatic, and military facilities overseas, terrorists increasingly 
are striking at targets that have symbolic value, including American 
businesses, schools, and cultural institutions and other 
nongovernmental facilities. Attacks on such facilities can generate 
many fatalities, intimidate civilian populations, and even influence 
politics. The shift from targeting military, diplomatic, and 
governmental personnel and facilities to private citizens and 
organizations presents DS, and the U.S. Government as a whole, with 
very complex challenges. OSAC was established to address such 
challenges and to promote security cooperation and information sharing 
among private-sector organizations and the U.S. Department of State. 
The Council is made up of 30 private-sector and four public-sector 
representatives who advise the Department and DS about security issues 
of concern to the U.S. private sector overseas.
    OSAC provides an information lifeline to Americans during crises 
overseas. In July and August 2006, OSAC played an important role in 
helping Americans and American organizations during the conflict 
between Israel and Hezbollah. In addition to responding to more than 
600 requests from constituent members for information and assistance, 
OSAC funneled information to the State Department's Bureau of Consular 
Affairs and to DS's Regional Security Office in Beirut. In many cases, 
such information concerned special needs of Americans affected by the 
crisis, including serious medical and family circumstances that needed 
to be taken into account as part of the evacuation operation from 
Lebanon.
    Through OSAC country councils active in some 100 nations worldwide, 
more than 4,500 American businesses, schools, museums, churches, and 
other organizations exchange timely information about the overseas 
security environment. The information the country councils provide is 
used to plan and implement security programs that protect American 
organizations and their personnel worldwide and to assist Americans and 
American organizations in crisis situations. In 2006, OSAC launched an 
initiative to work in partnership with other information-sharing 
organizations in the public sector. Through this initiative, 
organizations such as the New York City Police Department's Shield 
Unit, the Australian Security Intelligence Organization, and the United 
Nations Department of Safety and Security began to exchange security 
information.

Major Events Coordination Unit
    Our Major Events Coordination Unit (MECU) helps address future 
worldwide security needs surrounding major events with official U.S. 
representation overseas. DS recently provided significant security 
resources to the Pan American Games in Rio de Janiero, Brazil, and the 
G8 meeting in Japan.
    MECU and the DS agents are the U.S. Government's primary security 
coordination point for the 2008 Beijing Summer Olympics. In addition, 
DS has already begun planning and coordination support of the 2010 
Olympic Winter Games in Vancouver, Canada.
    As these major athletic events provide terrorists with multiple 
targets, we must continue to offer our security coordination and 
expertise to foreign governments hosting these events. Having served as 
the U.S. Olympic coordinator to the Olympic Games in Athens, Greece, I 
know first-hand of the law-enforcement and counterterrorism initiatives 
required to keep athletic venues and our personnel protected from 
potential threats.
    MECU also supports the Foreign Diplomatic Corps' attendance at the 
Democratic and Republican national conventions. DS has 15 major events-
related security courses designed to improve the security posture of 
our partner nations as they interact with other nations. The Diplomatic 
Security Training Center has provided courses for the Olympics, World 
Soccer Cup, Asia Pacific Economic Cooperation Forum, Cricket World Cup, 
as well as for international venues in Greece, Pakistan, Yemen, and 20 
other countries. In 2007, ATA completed presentations in Peru and 
India, with more courses scheduled for South Africa and Senegal.
    As I conclude, cultivating and developing partnerships with other 
U.S. Government law enforcement agencies, the Intelligence Community, 
and in particular, host-government law-enforcement elements, are 
critical in the defense of our homeland. Using vehicles such as EACs 
and LEWGs and key programs such as RFJ, OSAC, ATA, and Visa and 
Passport Security, DS leverages all available resources in contributing 
to the coordination of overseas counterterrorism efforts. With our 
combined effort and your assistance, I am confident that we will 
succeed.
    Chairwoman Sanchez, I thank you and the other members of the 
Committee for being given the opportunity to appear here. I would now 
be happy to answer any questions you or the other members may have.

    Ms. Sanchez. And now we will recognize Mr. Fuentes to 
summarize his statement for 5 minutes.

 STATEMENT OF THOMAS V. FUENTES, ASSISTANT DIRECTOR, OFFICE OF 
INTERNATIONAL OPERATIONS, LEGAL ATTACHE PROGRAM, FEDERAL BUREAU 
                        OF INVESTIGATION

    Mr. Fuentes. Good morning, Chairwoman Sanchez, Ranking 
Member Souder and distinguished members of the subcommittee. 
Thank you very much for this opportunity to talk about the 
FBI's international operations.
    I oversee the 75 offices that we have around the world. 
Next week it will be 76 when we open an office in Algiers, 
Algeria. These offices are staffed by nearly 270 permanent FBI 
staffing of agents and specialized support personnel. I also 
oversee the over 100 persons that work for my staff here in 
Washington, and in addition to the administrative, logistical 
and operational support of our legal attaches, as well as 
coordination with FBI and other law enforcement partners as 
well as the Intelligence Community partners, we also are 
responsible for the FBI's protocol, visitors, passport, visa 
and other programs related to international operations.
    The primary mission of our legal attaches overseas is to 
establish a close partnership, enhance the relationship, 
develop relationships with the appropriate services in each 
country that will match up with our mission, with the 
requirements that we have to gain assistance in terrorism 
investigations or cybercrime or other criminal programs, and as 
well as coordinate requests for training.
    In addition to that liaison and investigative effort, we 
are extensively involved in efforts to provide training in 
those countries, and we work very closely with our partners who 
provide the oversight and the funding from the Office of 
International Narcotics and Law Enforcement and the 
Antiterrorism Assistance Program at the Department of State, as 
well as other Federal criminal agencies and the Department of 
Defense.
    In addition, we coordinate the appropriate instructors and 
staffing for the International Law Enforcement Academies. 
Again, this is under the oversight of the Department of State 
and includes the academies, now the one that is more than 10 
years old in Budapest, Hungary, as well as the academies in 
Bangkok, Thailand; Gaborone, Botswana; and the newest one in El 
Salvador.
    In addition, it wasn't mentioned that I am also a member of 
the Executive Committee of Interpol, and we work very closely 
with the 186 member nations in Interpol. Here in the Washington 
National Central Bureau office, which is comprised of 22 
Federal, State and local agencies, I have a staffing of four 
agents and support employees here in Washington, as well as a 
senior staff member in Lyon, France, at their headquarters, and 
the newest office of Interpol where we are working with the 
National Security Council of the United Nations in their newest 
office in New York. And I have a full-time member in that 
office coordinating future international law enforcement 
deployments. Also I have an agent assigned at Europol in The 
Hague, Netherlands, and we work with any number of other 
international, multinational law enforcement groups. That 
includes the G-8. I was a member for 5 years of Law Enforcement 
Projects Group with the G-8 and many others, Asiapol and many 
other regional groupings of law enforcement agencies. We 
participate in all of those as well.
    We also provide assistance and support to the Department of 
Justice's program, the Office of Prosecutorial Development 
Assistance and Training, OPDAT, which trains prosecutors and 
members of the criminal justice system in developing countries; 
the Office of ICITAP at DOJ, which is the International 
Criminal Investigative Training Program--Assistance Program. So 
we have provided agents, as well as logistical and operational 
support for those efforts to train and develop local law 
enforcement agencies.
    In addition, we--through advanced training programs such as 
our FBI National Academy Program at our academy in Quantico, 
our National Executive Institute Program, our Law Enforcement 
Executive Development Program, we train at a variety of levels 
senior law enforcement officials not only from the United 
States, but from throughout the world. The National Academy 
Program, begun in 1935, was extended by order of President 
Kennedy in 1962 to include international partners, and now each 
of the four sessions of the National Academy each year is 
comprised of 10 percent of the students from international law 
enforcement agencies. And I oversee the selection of those 
individuals from throughout the world to attend that.
    We have expanded greatly in the last couple of years to 
address the new issues, the counterterrorism efforts around the 
world. And I will be glad to talk specifically about any of the 
staffing issues or liaison and information-sharing issues that 
we have in working together with our partners, both U.S. and 
international. Thank you.
    Ms. Sanchez. Thank you so much, Mr. Fuentes.
    [The statement of Mr. Fuentes follows:]

                Prepared Statement of Thomas V. Fuentes

    Good morning Chairwoman Sanchez, Ranking Member Souder, and members 
of the Subcommittee. I appreciate the opportunity to be here today to 
discuss the FBI's Legal Attache program, its success, and coordination 
with our international partners and other Federal, State and Local 
government agencies of the United States.

The Legal Attache Program
    The foundation of the FBI's international program is the Office of 
International Operations and the Legal Attache, or ``Legat,'' each of 
whom is FBI Director Robert Mueller's personal representative in the 
foreign country in which he/she resides or for which he/she has 
regional responsibilities. FBI personnel abroad serve under the 
authority of the Department of State, Chief of Mission at United States 
Embassies around the world, at the pleasure of Ambassadors and host 
country governments. Their core mission is to establish and maintain 
liaison with principal law enforcement and security services in 
designated foreign countries. This liaison enables the FBI to 
effectively and expeditiously conduct its responsibilities in combating 
international terrorism, organized crime, cyber crime, and general 
criminal matters. In particular, Legat liaison activities are essential 
to the successful fulfillment overseas of the FBI's lead Federal law 
enforcement mission to prevent terrorist attacks against citizens and 
interests of the United States. Liaison is carried out in accordance 
with Executive Orders, statutes, treaties, Attorney General Guidelines, 
FBI policies, and interagency agreements. The Legal Attache program 
provides for a prompt and continuous exchange of information with 
foreign law enforcement and security agencies and coordination with 
U.S. Federal law enforcement agencies that have jurisdiction over the 
matters under investigation. Our foreign-based personnel also assist 
foreign agencies with requests for investigative assistance in the 
United States to encourage reciprocal assistance in counterterrorism, 
criminal, and other investigative matters.
    In addition to the Legat program, the FBI's international law 
enforcement activities focus on one other key element, international 
training. Through international training, the FBI provides foreign law 
enforcement officers with skills in both basic and advanced 
investigative techniques and principles which promote cooperation and 
aid in the collection of evidence. Training allows the FBI to 
demonstrate major crime scene, counterterrorism, and other 
investigative techniques, while establishing better working 
relationships, thus strengthening cooperation among law enforcement 
personnel worldwide. Funded by the Department of State or Department of 
Defense, significant training programs include the International Law 
Enforcement Academies in Budapest, Hungary, Bangkok, Thailand, and 
Gaborone, Botswana, as well as bilateral training programs targeting 
Anti-terrorism, Weapons of Mass Destruction, and Terrorist Financing. 
The FBI also participates in Bilateral Working Groups and several 
additional counterterrorism training programs in the Middle East.
    The FBI's Legal Attache Program was developed to pursue 
international aspects of the FBI's investigative mandates through 
established liaison with principal law enforcement and security 
services in foreign countries, and to provide a prompt and continuous 
exchange of information with these partners. The FBI currently has 60 
fully operational Legat offices and 15 sub-offices, with 165 agents and 
103 support personnel assigned for a total of 268 employees stationed 
around the world. The growth of transnational crime caused by the 
explosion in computer and telecommunications technology, the 
liberalization of immigration policies, and the increased ease of 
international travel has made it necessary for the United States to 
cooperate with countries around the world concerning security issues. 
The FBI's role in international investigations has expanded due to the 
authority granted by the Congressional application of extraterritorial 
jurisdiction.
    As the FBI's domestic investigative responsibilities become 
increasingly intertwined with international criminal and terrorist 
elements in other countries, the FBI must continually enhance its 
ability to conduct complex investigations and acquire evidence from 
abroad for criminal prosecutions in the United States. To do so 
requires close coordination with international partners and security 
services. Some of the FBI's most important and visible investigations 
are multi-national in scope, placing greater demands on the FBI, 
especially in the field, as more case agents are faced with challenges 
in obtaining admissible evidence for domestic prosecutions.

The Role of the Legal Attache
    The FBI Legal Attache works with the law enforcement and security 
agencies in their host country to coordinate investigations of interest 
to both countries. The role of Legal Attaches is primarily one of 
coordination, as they do not conduct foreign intelligence gathering or 
counterintelligence investigations. The rules for joint activities and 
information sharing are generally spelled out in formal agreements 
between the United States and the host nation.
    Typical duties of a Legal Attache include coordinating requests for 
FBI or host country assistance overseas; conducting investigations in 
coordination with the host government; sharing investigative leads and 
information; briefing Embassy counterparts from other agencies, 
including law enforcement agencies, as appropriate, and Ambassadors; 
managing country clearances; providing situation reports concerning 
cultural protocol; assessing political and security climates; and 
coordinating victim and humanitarian assistance.

Legal Attache Coordination
    The Legal Attache offices provide critical and timely support in 
the defense of our homeland through direct coordination with the 
Department of Justice, Department of State, Interpol, and other law 
enforcement and security entities. For example, the FBI has full-time 
detailees to the Interpol offices in Lyon, France, the United Nations, 
and the Washington, D.C., based National Central Bureau. Together with 
the Department of State, the Office of International Affairs of the 
Criminal Division, Department of Justice, is responsible for the 
negotiations of bilateral and multilateral law enforcement treaties 
needed to effect the extraditions of fugitives and to facilitate 
collection of evidence from foreign countries. In addition to the 
Office of International Affairs, the FBI also supports the ongoing 
efforts of the Department of Justice to provide long-term justice 
sector assistance to prosecution and police services in numerous 
foreign countries. This long-term assistance, which is provided through 
the Criminal Division's Office of Overseas Prosecutorial Development, 
Assistance and Training (OPDAT), and the International Criminal 
Investigative Training Assistance Program (ICITAP), helps to ensure 
that our foreign partners not only follow the most modern law 
enforcement techniques, but also respect the rule of law. As a result, 
the Legal Attache offices benefit from their coordination, training, 
and mutual support. The Legal Attache offices directly coordinate with 
United States Embassy representatives by personally representing the 
FBI as a country team member, and serving as the lead Federal law 
enforcement agent for all crimes for which it exercises lead 
investigative jurisdiction. That includes both counterterrorism and 
terrorism finance investigations.
    In virtually all major FBI investigations, a significant 
international nexus develops. To balance the FBI's interest in 
addressing the international aspects of its investigations with the 
requirement to respect the host country's national sovereignty, the FBI 
must rely on the capability of the host country's law enforcement 
community. This is accomplished through the liaison partnerships 
developed by the Legal Attache and reinforced through elements of the 
international law enforcement community such as Interpol, the FBI's 
National Academy and numerous working groups, task forces, and training 
initiatives. These efforts foster interagency cooperation and are 
extremely productive in the pursuit of traditional criminal law 
enforcement matters, and even more so as we seek to identify, disrupt, 
and prosecute terrorists.

Legal Attache Success
    The Legal Attache offices have had numerous accomplishments over 
the years. As many of these items are sensitive, ongoing investigative 
matters, I offer merely a few efforts with which members of the 
committee may already be familiar:
        <bullet> Since the September 11th attacks on the United States, 
        the FBI's Office of International Operations has increased its 
        personnel by 60%. This expansion has occurred domestically 
        through operational support units at FBI Headquarters, as well 
        as through an increase in 54% of overseas Legat office 
        locations. On September 11th, the FBI's Office of International 
        Operations and Legats facilitated the rapid deployment of over 
        700 FBI personnel to countries in Europe, Africa, and the 
        Middle East.
        <bullet> The FBI coordinated and provided assistance to our 
        Indonesian counterparts through Legal Attaches following the 
        October 12, 2002, bombing in a Bali, Indonesia tourist 
        district, which resulted in more than 200 deaths, including 
        seven citizens of the United States. FBI personnel were on 
        scene and offered forensic capabilities to the Indonesian 
        National Police through the Legal Attache office.
        <bullet> As many of you recall, a large earthquake in the 
        Indian Ocean occurred on December 26, 2004, triggering a series 
        of lethal tsunami waves killing an estimated 230,000 people 
        (including 168,000 in Indonesia alone.) The FBI, Legal Attache, 
        and Interpol personnel were involved in helping to successfully 
        identify over 8,000 victims through fingerprint analysis.
        <bullet> On May 10, 2005, the newly established Legal Attache 
        in Tbilisi, Georgia was assisting the United States Secret 
        Service Presidential Protective Detail when an individual 
        tossed an Armenian hand grenade wrapped in a red handkerchief 
        near the President's stage. Georgian officials worked directly 
        with Legat Tbilisi and submitted the red handkerchief and other 
        evidentiary items to the FBI Laboratory in Quantico, Virginia 
        for DNA analysis. Following a joint investigative effort 
        between the Georgians and the FBI, the suspect was captured two 
        months later in July 2005, and subsequently convicted, based in 
        part, on the DNA evidence gathered from the handkerchief.
        <bullet> On July 7, 2005, three suicide bombers exploded 
        Improvised Explosive Devices contained in backpacks within 
        fifty seconds of each other on three London Underground 
        commuter trains. A fourth bomb exploded on a bus nearly an hour 
        later. The attacks killed 56 people, including the four suicide 
        bombers, and injured 700. Legat London was integral in 
        facilitating FBI assistance to New Scotland Yard.
        <bullet> In 2006, Israel began a lengthy bombing and ground 
        campaign against Hizballah elements in Beirut, Lebanon. The 
        bombing led to a mass evacuation of Americans from Beirut to 
        Cyprus via the United States military. Legat Athens played a 
        critical role during the evacuation. Working with other United 
        States Embassy personnel from the Departments of State and 
        Justice, Legat Athens acquired copies of all United States 
        passenger manifests to ensure terrorist elements did not enter 
        Cyprus and attempt to enter the United States during the mass 
        evacuation. Legat Athens then supplied manifests to the FBI's 
        Counterterrorism Division at FBI Headquarters for review 
        against databases. In addition, while working with the 
        Department of Defense, Legat Athens assisted our Beirut sub-
        office in the expeditious return of 12 high-ranking Lebanese 
        law enforcement officials who had been in Washington, D.C., for 
        FBI-sponsored training.
        <bullet> In August 2007, the Department of Justice announced 
        two plea agreements and record-setting $600 million fines in 
        association with a multi-national criminal conspiracy on the 
        part of international airline corporations to fix prices on 
        passenger and cargo flights worldwide. Several Legat offices 
        were involved and continue to support this ongoing criminal 
        investigation.
        <bullet> This past month, Director Mueller met with European 
        partners and stressed the importance of transatlantic 
        cooperation and intelligence sharing, provided that national 
        judicial traditions and laws are respected. Director Mueller 
        also met with newly appointed members of French President 
        Nicolas Sarkozy's cabinet to discuss ways to strengthen 
        aggressive cooperative efforts on counterterrorism, cyber crime 
        and transnational organized crime matters.
        <bullet> A Fort Worth, Texas retiree was recently released from 
        captivity, after being kidnapped in the Dominican Republic for 
        a $1 million ransom. After being dragged through the jungle, 
        bound, gagged, blindfolded, and dumped in a cave for three 
        days, the victim was rescued due to relationships established 
        with the host nation's police and army forces. The FBI's Miami 
        and Dallas Divisions, Legat, United States Embassy personnel, 
        and FBI crisis negotiators assisted in this recovery.
        <bullet> Just two weeks ago, the Department of Justice 
        announced that Oussama Abdullah Kassir, an accused terrorist, 
        was extradited from the Czech Republic to face charges in the 
        Southern District of New York. Kassir was taken into FBI 
        custody in Prague on September 25, 2007. Kassir was arrested in 
        Prague on December 11, 2005, by Czech authorities, based on a 
        criminal complaint filed in the Southern District of New York 
        and a corresponding arrest warrant on file with Interpol. Legat 
        Prague and several other FBI personnel were instrumental in 
        this effort.
    These are just a few achievements Legal Attaches have attained in 
order to protect our nation, its citizens and interests abroad through 
coordination with foreign law enforcement in the continuous fight 
against terrorism and international crime, in furtherance of our goal 
of interagency cooperation.
    In closing, the FBI Legal Attaches are committed to continuing 
collaborative work abroad, supporting domestic FBI investigative 
matters, and coordinating with foreign, Federal, State and Local law 
enforcement agencies in the fight against terrorism. The FBI must rely 
on the capabilities of the host country's law enforcement community. In 
order to ensure that such investigations are brought to successful 
conclusions, the establishment and maintenance of effective liaison 
through training and other initiatives must be developed and 
maintained. The Legats must have direct connectivity between the 
Federal agents and foreign law enforcement officials abroad in order to 
be successful. At an alarmingly frequent rate, more and more crimes are 
being committed across international borders. Technology, 
communication, and transportation have done more to blur international 
borders in recent years than ever before. Combating transnational crime 
and terrorism, therefore, requires cooperation by law enforcement 
agencies on a global scale. The focus of the Office of International 
Operations is to advance the domestic and international mission of the 
FBI, to promote relations with both foreign and domestic law 
enforcement and security services operating in the international arena, 
and to facilitate investigative activities where permissible.
    The FBI, the Office of International Operations and its collective 
Legal Attache office personnel look forward to future cooperation with 
all partners, domestic and foreign, to protect the citizens and 
interests of the United States.
    Thank you Chairwoman Sanchez and members of the Subcommittee for 
the opportunity to testify before you today. I am happy to answer any 
questions you may have.

    Ms. Sanchez. And thank you all for your testimony. I will 
remind each Member that he or she will have 5 minutes to 
question the panel, and now I will recognize myself for some 
questions.
    Mr. Leiter, I think that everybody on this committee is 
aware of the broad plan for coordinating the counterterrorism 
efforts, the one that the President signed off on in June of 
2006. I would like to know, what is the status of NCTC's 
development of the implementation guidance for that plan?
    Mr. Leiter. Madam Chairwoman, after the plan was approved 
by the President, each department and agency was required to 
write a supporting plan for each one of the tasks they were 
assigned. The Department and agencies have done so, and the 
NCTC has set up a system of monitoring of the implementation of 
those plans. So the departments and agencies are required and 
have over the past 6-plus months provided data on where they 
have or have not made progress in implementing their supporting 
plans to the larger National Implementation Plan.
    Ms. Sanchez. So you are saying after you all put together 
this broad NIP, you sat down with the different departments 
that would be involved with that, and you asked them to write 
down--to make a plan of how to implement that down their ranks?
    Mr. Leiter. That is exactly right.
    Ms. Sanchez. And you also have a monitoring system?
    Mr. Leiter. That is correct.
    Ms. Sanchez. What type of measurements? How do you know? 
What is the array of measurements that you are looking at, if 
you can tell us without being in the classified area, so that 
we have some idea of how you are monitoring that?
    Mr. Leiter. Right. It really does depend from task to task. 
But we require submission of information down to a very 
granular level. Some of these, in terms of building partnership 
capacity, would look at how many countries are you working 
with, are you working with the countries that we believe are 
most critical to fighting the war on terror, do you have 
personnel in those countries, are your--as I also noted with 
OMB, are your programs aligned in a way that again they are 
attacking parts of the war on terror that the National Security 
Council and NCTC have determined are the prime candidates?
    And I would note, as Mr. Fuentes noted, the placement of an 
FBI Legat in Algeria would be considered a tangible 
illustration of FBI focusing its resources on an area where we 
think there is an increased terrorist threat, North Africa.
    Ms. Sanchez. Let us talk about resource decisions. Will 
they be tied to these goals and objectives? Who will take the 
lead role in requesting these resources, either from the 
administration or from the Congress? Will you overall take a 
look and say these departments don't have enough, and sort of 
push that way, or would each of the departments have to say, 
well, this is a part of our supplement to the NIP? Who is 
taking the lead on it? Because, quite frankly, we haven't heard 
much on this front.
    Mr. Leiter. I understand, Madam Chairwoman. And part of the 
reason you have not is because the plan was approved by the 
President in June of 2006. So the first very tangible sign you 
will see of OMB using the NIP will be in the 2009 budget 
submissions. And what NCTC has done is sat down with OMB, and 
we have prioritized among the many strategic objectives and 
tasks within the NIP and said this is what departments and 
agencies should be focusing their resources on.
    Ms. Sanchez. So would the President's proposal for the 2008 
year, the current one that we are in, would that reflect you 
sitting down with OMB for the NIP?
    Mr. Leiter. The 2008 was briefly influenced, but because of 
the timing of the production of the department and agency 
budgets, not completely. The first complete reflection of NIP 
priorities and departmental budgets will appear in fiscal year 
2009. Again, that is where NCTC and OMB work together to make 
sure that the departments and agencies, in fact, prioritize 
consistent with their responsibilities within the NIP.
    Ms. Sanchez. What has NCTC done to come back to Congress, 
to the committees of jurisdiction, to let them know where you 
are, what types of resources you are going to need, et cetera, 
in order to get the NIP in? How are you talking to us?
    Mr. Leiter. Madam Chairwoman, we had provided the NIP to 
some Members. I also understand that we have offered to many 
committees, including your own, briefings on the NIP. As I 
noted in my oral testimony in my opening statement, we are more 
than happy and, in fact, would welcome the opportunity to come 
speak to Members and staff about how the NIP is set up, more 
specifics in a classified setting which are specific to law 
enforcement agencies, and then talk about how those are or are 
not prioritized within the 2009 budget submission.
    Ms. Sanchez. My last question for you, not me, but Mr. 
Shays in a prior Congress had asked GAO to take a look at this 
issue of Homeland Security Department's array with respect to 
international counterterrorism. And one of the things they did 
was to go and ask of you and your staff information, the types 
of questions I am asking right now: Is it done, how are you 
getting it through? And you all decided you didn't want to talk 
to them. Why? I mean, this is an open hearing right here, and 
you are telling me these things. They have classified 
clearances. What was the problem there?
    Mr. Leiter. I guess I would--Madam Chairwoman, I would take 
a bit of issue with the characterization just because although 
we did not go into extensive detail about some parts of the 
NIP, we did not refuse to talk to the GAO. I think at the time 
that the GAO discussed this with us, part of the discussions in 
their work, which frankly has been quite useful to us in 
understanding what Congress does know and does not know and how 
we have to work better with agencies. So in that sense it has 
been a very useful tool for us. But part of it was actually the 
GAO discussions started before the NIP was even approved by the 
President. The report was ultimately signed and approved after 
the NIP was approved. But even since then there has been an 
extensive amount of work ongoing in terms of setting up a 
monitoring tool with departments and agencies, working with 
OMB.
    So some of the facts simply didn't exist when GAO did this 
report, and to the extent that we couldn't communicate them 
then to GAO, again, we would be very happy to sit with yourself 
and other Members to go into as much depth as we can.
    Ms. Sanchez. So if I sent in my GAO analyst to ask you the 
questions that I might have, the probing questions about how to 
set up a matrix, whether you have done it correctly or et 
cetera--I mean, I was a performance auditor before, so I 
understand the types of questions. I don't have the time to sit 
down and go through the list, but they might if I ask them to 
do that. Would that be available at this point now that you 
have an--an NIP, that you have supplemental concurrence from 
the different departments about how it is supposed to be, that 
you say you have a measuring system; would they be able to take 
a look at that?
    Mr. Leiter. We would certainly work with you. We are happy 
to work with your staff extensively to do that. And to the 
extent we can, we will work with GAO to provide them with 
additional information.
    Ms. Sanchez. Thank you, Mr. Leiter.
    I will now ask my Ranking Member Mr. Souder for his 5 
minutes.
    Mr. Souder. Thank you.
    I know we have been making progress, but I sure hope that 
the terrorists will cooperate and wait until fiscal 2009. I 
mean, partly we don't sense urgency sometimes, and that becomes 
frustrating. And we continue to remain concerned about turf. It 
is not only true in the agencies, but in Congress. The thing is 
that Congress will always be somewhat disorganized. We hope law 
enforcement is organized, because if you miss the terrorists, 
we die. We can hold all kinds of hearings, but ultimately you 
are the executive branch to try to do that, and you have to be 
more organized than we are, and we need to make progress as 
well.
    Here is part of the challenge. In the National 
Counterterrorism Center, the limitation of the statute says you 
may not direct the execution of counterterrorism operations. 
Yet at the same time you are supposed to direct and develop a 
strategy for these efforts; that what I heard you say in your 
testimony was is that you try to figure out who is doing what 
and then give them assignments for how to do this.
    Now, let me give a simple example. A simple example would 
be a person on our terrorist watch list is going back and 
forth, say, between Montreal and Germany and London. We catch 
him, let us say, at Buffalo. Now, he starts to talk and 
unravels a network that is developing a nuclear bomb or 
something to get into the U.S. that goes over Yemen and to 
Saudi Arabia, and that leads us into Pakistan and North Korea. 
Now, the challenge here is who is in charge, and saying, oh, 
well, the FBI has got this part, they have got this part, you 
can't get one ambassador in an area. Who would be in charge? 
That is a simple case.
    I would be curious how you see this, if, after we get 
attacked, are we going to have a thing where everybody points 
to the other person and says, That wasn't my lane?
    Mr. Leiter. Ranking Member Souder, let me begin by telling 
you that when I start my day every day at 6:45 going through 
intelligence from the United States and virtually every country 
in the world every day, and then when I sit down with the 
interagencies, 17 different agencies, DHS, TSA, FBI, Terrorist 
Screening Center, Department of Justice, Department of State, 
Diplomatic Security, CIA, DOD--I can go through the list of 17. 
When I do that every single day at 8:00 in the morning, that is 
exactly what we talk about. That is exactly what we do. We look 
for all of those connections. And accepting the point that I 
wish the budget process worked more smoothly and we could align 
budgets perfectly before 2009--and I will also note that the 
NIP did, in fact, influence 2008 budgets. Frankly, sir, I think 
it is a different question about who is in charge of that 
operation, because I can tell you again when I start my day 
every morning, when that NCTC chairs a video teleconference 
three times a day, every day of the year, exactly what you look 
for is what you are talking about, and we draw those 
connections. And we work with every chief of mission, chief of 
station, Legat. It matters not. That information is exchanged 
on a daily basis, and I am on the phone daily with FBI and DHS 
and CIA counterparts. And there is not an issue there, sir.
    Mr. Souder. So you are saying if such a bomb got into the 
United States, you are the person who would be responsible?
    Mr. Leiter. You can call me up here, and you can yell at 
me, sir, because I take it as my solemn oath to protect and 
defend this Nation and stop that bomb from coming in. That is 
why I get up in the morning and leave my son and go to work.
    Mr. Souder. And you believe that even though you may not 
direct the execution, do you think it is a disconnect that you 
are in charge of putting all that together, making assignments, 
but you don't have any authority over the execution? How do we 
get in that situation?
    Mr. Leiter. Mr. Souder, that is an absolutely fair point. 
That does not make it easier. On the other hand, I think 
coordination today in terms of--this word is overused in 
Washington, but there is a level of collegiality between myself 
and my other key counterparts who run operations in each of 
these components, so that although I can't say, FBI, go break 
down this door; CIA, go do this, there is a level of 
cooperation which I think allows that.
    Now, as you are aware, you were on the Hill, sir, the 
discussions about whether or not NCTC would actually run 
operations, interfere with very significant chains of command 
and long-lasting statutory responsibilities was a very 
difficult discussion.
    Mr. Souder. And complicated here by turf as well, to say 
the least.
    Mr. Fuentes, how many places are you in the physical 
collocation with the station chief? And if you can't say that 
officially, one of the things I have a concern about is some 
embassies do this well, some embassies don't do it well at all 
in spite of all the talk we hear.
    Mr. Fuentes. Sir, I am unable to specifically answer those 
locations, but our national security branch in coordination and 
under the direction of NCTC determines where it would be better 
served to have an FBI agent or analyst from our 
counterterrorism program embedded in a station. And that is as 
far as I can say in this format.
    I should add that our Legal Attaches' efforts overseas are 
in the criminal arena only. We do not conduct 
counterintelligence investigations on the ground in foreign 
countries. When we were started in 1940 by President Roosevelt, 
the FBI was the first civilian counterespionage agency with 
international responsibilities outside of the U.S., but that 
changed with the National Security Act of 1947. At that time, 
the CIA took the lead on that, and the FBI kept the name Legal 
Attache, which was somewhat of a covert term, but at that time 
began all operations in host countries as completely 
transparent, working with the host law enforcement in that 
country under the assistance from that host country.
    Ms. Sanchez. Ms. Harman, for 5 minutes.
    Ms. Harman. Thank you, Madam Chairwoman.
    And welcome to our witnesses, especially a big welcome to 
Mr. Leiter, with whom I have worked closely over recent months. 
I thank you for your visit to Los Angeles where we looked at 
the Homeland Security Department Fusion Center and some of the 
other activities, and for your prompt response to many of my 
questions about the need for additional information sharing and 
cooperation with State, local and tribal officials.
    I want to say that I am pleased that we have finally signed 
a memorandum of agreement, and that, as far as I know, at the 
earliest possible date we are going to have at least five State 
and local officials sitting in chairs at the NCTC or at the 
ITAG, another acronym, but physically collocated at the NCTC; 
is that correct?
    Mr. Leiter. That is correct, Congresswoman. I would thank 
you for your commitment to helping us find the State and local 
people who can come and help advise the Federal Government on 
how we can better serve those constituencies.
    Ms. Harman. Well, there are a lot of very capable State and 
local people, as you know. They have been witnesses at our 
hearings. You have seen them in the field. And it is extremely 
important--and I know you agree with me--to share information 
vertically, not just horizontally; otherwise, how can our 
neighborhoods and communities know in real time about threats 
against them?
    Mr. Leiter. Congresswoman, I certainly agree. And last week 
I spent an entire day--an event which was cohosted by the 
Department of Homeland Security, the FBI and the National 
Counterterrorism Center with representatives from about 70 
State and local governments from throughout the country talking 
about both the particular threat that we perceive and also ways 
in which we can improve our cooperation with them I think was 
quite successful.
    Ms. Harman. That is impressive. Michael Jackson, the 
outgoing Deputy Secretary at the Homeland Security Department, 
has told me that he would come with me and Mr. Reichert, who is 
the Ranking Member on our Subcommittee on Intelligence, to the 
NCTC, which he has never visited, to see the State and local 
people in place. So I am tasking you to let us know day one 
that they are there. Do you know what day that is?
    Mr. Leiter. I do not, but I will find out and will get back 
to you. And I will just note that one of my saddest days in 
government in the past several years was hearing that Secretary 
Jackson had resigned. It will be a real loss.
    Ms. Harman. Well, he, too, has been very cooperative in 
terms of trying to move this ball forward, and I salute him for 
that.
    I have a question for you and for Mr. Fuentes, and I have 2 
minutes. So in your case, I want to stress that I don't think 
anyone here is looking for fancy booklets, big work charts, all 
kinds of lists. What we are looking for is a strategy. I 
thought that Mr. Souder's questions were right on point. We are 
looking for strategically how do you leverage what you have, 
find out what is going on in foreign locations, and then move 
that information into the NCTC so that in real time you tell 
others who need to have it so they can act on it, hopefully to 
prevent and disrupt threats? Our goal is not to respond, but 
our goal is to prevent and disrupt. Do you think you have an 
adequate strategy in place?
    Mr. Leiter. I think we have an adequate high-level 
strategy, and I think that on a daily basis the information is 
flowing. I didn't ring off that list of acronyms of agencies to 
try to impress. It is to show that on a daily basis the 
communication occurs.
    I think what we continue to be challenged with is to making 
sure that departments and agencies are, in fact, aligning their 
strategic plans with the larger U.S. Government plan.
    Ms. Harman. Well, as one of the godmothers of the 
Intelligence Reform Act of 2004, the goal was not to reorganize 
boxes. The goal was to create a joint command across our 
Intelligence Community to be sure that we can connect the dots 
in real time, and that the information we have is accurate and 
actionable. I assume you are a cheerleader for that goal. I 
just want to be sure that you personally in your important 
position feel that you are creating that joint command and 
doing your best when you leave your son early in the morning to 
make certain that on an operational level you can do what is 
needed.
    Mr. Leiter. Absolutely. It is the same reason that 
Ambassador Lino and I last week traveled to Copenhagen and 
Madrid to sit down with DHS, NCTC and many other agencies side 
by side with the entire country team, not just the Intelligence 
Community team, but the entire country team, to make sure that 
they were working together and that they were working with the 
foreign partners.
    Ms. Harman. Well, I think we need that classified briefing 
so that we can review how some of this works. But it is 
absolutely critical that it work, and I am pleased by your 
answers.
    Mr. Fuentes, I have about 5 seconds. The FBI has just 
recently announced a reorganization with a bigger focus on 
intelligence. And I am interested to know how you are 
implementing that goal abroad.
    And, Madam Chair, if he could just answer my question. I 
have completed my questions.
    Mr. Fuentes. The overseas intelligence gathering is covered 
by the Intelligence Community. We are not specifically involved 
in that. This is by our agreement with the host countries that 
we are there for law enforcement purposes, law enforcement 
assistance and training. So we are not directly involved in 
that.
    We talked earlier about the embedding with some of those 
other agencies and the cross share, both overseas and here, and 
that is occurring. Beyond that it would be a classified 
discussion. But our effort overseas in our agreements with our 
host country is to be completely open, transparent, and provide 
as great of experience and assistance to them that we can in 
order to have that relationship.
    And just to give you an example, 4 years ago, Northwest 
Africa was covered by our Legal Attache Office in Paris. So we 
had covered France and 14 West African, Northwest African 
countries. We now have offices in Rabat, Dakar, Freetown, 
opening Algiers next week, as I mentioned. We already had Cairo 
and Lagos in West Africa. And our philosophy with that is that 
you cannot establish partnerships in relationship, whether it 
is with our other counterparts in the U.S. or overseas, by 
phone, fax, e-mail, other discussions, high-level meetings; 
that it takes a direct, face-to-face working partnership every 
day. And I refer to it with regard to not just the FBI and the 
efforts of all of our law enforcement and State Department 
partners, as in some places you need boots on the ground, but 
in the rest of the world we need wingtips on the ground. We 
need to have a direct partnership. And those law enforcement 
agencies provide the assistance that help us.
    We have the recent case in Germany working with our 
colleagues of the Bundeskriminalamt, BKA. You saw the plot. 
That was a direct plot against U.S. military forces on the 
ground in Germany. That was worked at a law enforcement level 
through our partnerships in cooperation. And I can go on and 
on. The London subway attacks, the airplane attacks.
    Ms. Harman. Thank you. I would just amend that to say we 
also need high heels on the ground.
    Mr. Fuentes. I have actually seen a wing-tipped woman's 
shoe. I meant that for both.
    Ms. Sanchez. Thank you, Ms. Harman.
    I would now recognize Mr. Bilirakis for 5 minutes.
    Mr. Bilirakis. Thank you, Madam Chairwoman. I appreciate 
it.
    I am especially interested in the Visa Security Program, 
which performs proactive law enforcement vetting and 
investigation of visa applications overseas. My first question 
is for Ambassador Lino and Mr. Cote. Would you please update us 
on the status of visa security programming and share with us 
types of activities that DHS officers overseas engage in to 
enhance the visa process as a law enforcement and 
counterterrorism tool?
    Ms. Lino. Thank you, Congressman.
    Okay. It is precisely for this reason that Mr. Cote is here 
to talk about the specifics of programs that ICE carries 
overseas, so I would ask him to respond to your question.
    Mr. Cote. Thank you. Thank you for the question.
    Since the inception of the Visa Security Program under the 
Homeland Security Act of 2003, we have put together a program 
in an overseas realm that encompasses nine offices now with a 
program to expand to 32 offices within the next 5 years; that 
under the--in working with our partners here at the table, and 
especially the Consular Affairs Office at the State Department, 
we feel that we can proceed and cover 75 percent of the most 
high-threat visa-issuing posts by this expansion plan.
    In addition to that, we are working with our Law 
Enforcement Working Groups and our law enforcement working 
partners at the country team level to facilitate any of the 
information we get within DHS to add to the more secure process 
of the visa issuance.
    Mr. Bilirakis. Do the officers actually go out into the 
field to investigate applicants, or are they primarily 
searching databases for information that might be a cause for 
concern? And also, which countries are--you mentioned nine 
posts, and I believe there are eight countries. Can you name 
those countries?
    Mr. Cote. Because of security concerns and the 
confidentiality, I would love to give you that information in a 
closed session. But in an open forum, I think there could be 
some security issues there, but we would certainly provide that 
information to you.
    Mr. Bilirakis. We welcome that. Thank you.
    Mr. Cote. And as far as working--primarily the visa 
security officers work within the consul sections to provide 
that immigration law enforcement background to the visa 
process. We do work with the host government agencies and 
specifically the RSOI program and the RSOs at post to 
facilitate any of the information that is needed for background 
on any of the investigations that are done locally.
    Mr. Bilirakis. Okay. Next question. What happens when an 
officer discovers something they believe should make an 
applicant inadmissible? Do they actually recommend to the 
consulate officials denial of applications? What happens if the 
consulate officials disagree with this? And what do visa 
service officers look for that would raise a red flag?
    Mr. Cote. Part of the job of the visa security officers is 
to work with the Law Enforcement Working Group to identify any 
threat or information there at post. They bring that law 
enforcement information to the visa process, and the consular 
officers are the people mandated and have the authority to 
issue visas. We bring that information to the consular 
officers, and we work collaboratively with them to get all of 
the information to them to make an informed decision. And if we 
recommend denials to the consular officers, those are 
transmitted in a way that is under a specific set of 
immigration laws for justification for that. And there is a 
process at the departmental level where if there is a conflict, 
it can be resolved that level.
    Mr. Bilirakis. Okay. Last question, Madam Chair.
    Do these officials look for anti-American statements by 
visa applicants or connections with other individuals or groups 
that espouse anti-American rhetoric or promote violence?
    Mr. Cote. We look at any potential threat to the United 
States that we get from our law enforcement partners and from 
our host country associates that we work with. We would 
evaluate the information, and as part of the normal visa 
process, we would collaborate with the State Department in 
order to make those decisions. But ultimately we would want to 
work with the State Department in order for that decision to be 
made by them.
    Mr. Bilirakis. Okay. Thank you. I look forward to working 
with you on this issue.
    Thank you, Madam Chairwoman. I appreciate it.
    Ms. Sanchez. I thank the gentleman from Florida.
    And now we will listen to the gentleman from Texas--oh, Mr. 
Cuellar is not in. Okay. How about Mr. Langevin from Rhode 
Island?
    Mr. Langevin. Thank you, Madam Chair.
    I want to thank the witnesses for your testimony today. I 
was obviously serving here when we created the NCTC. I had the 
opportunity to go NCTC and see the work that is being done out 
there for myself. I just think that that interagency 
intelligence-sharing coordination that is going on, at least in 
theory what is supposed to go on, is absolutely essential as we 
go forward, making sure that all of our intelligence agencies, 
as well as those on the front lines, have the actionable 
intelligence that they need to do their job and do it well.
    So with respect to interagency coordination, it is 
obviously a necessary step in combating terrorism both at home 
and abroad. However, we also need one entity that is ultimately 
responsible for creating the national strategic vision, setting 
benchmarks of achievements, and assessing whether progress has 
been made. The National Security Council established the 
overarching vision for our counterterrorism efforts in the 
National Strategy for Combating Terrorism, the most recent 
version of which was released last September.
    So my question is, Mr. Leiter, does that national strategy 
document remain the strategic vision for NCTC, or are you 
following guidance from other sources? And what is the 
relationship between NCTC and the National Security Council, 
especially with regard to selecting priorities, allocating 
resources, and assessing progress?
    Mr. Leiter. Congressman, the first one is easy. Our 
strategy is premised on the most recent White House-driven 
strategy, both classified and unclassified. So the National 
Implementation Plan is, in fact, consistent with the most 
current White House strategy.
    On the second point, as you know, Congressman, in our 
strategic operational planning role, we do not actually report 
to the Director of National Intelligence, we report directly to 
the White House. And in practice that is through the National 
and Homeland Security Councils. They ultimately--those 
policymakers ultimately determine, through the normal 
interagency process, what the priorities should be, working 
hand in hand with NCTC.
    So it is, frankly, a little bit difficult for me to say 
exactly who establishes the priority. The NCTC expertise, the 
NCTC intelligence feeds the policy community's judgments about 
where the priorities should be, and then we work extremely 
closely again with the NSC and HSC to try to align agencies' 
and departments' programs, budgets, and plans consistent with 
those priorities.
    Mr. Langevin. But can you elaborate more specifically on 
your interaction with the National Security Council and how 
they are informing you of where they want to task you, and then 
the information that you are providing to the Council?
    Mr. Leiter. Our interaction with the NSC and HSC is both on 
a very, very tactical and granular level on a daily, if not 
hourly, basis often. And then on a broader--on strategic 
issues, in terms of the NIP and priorities and changes to the 
NIP and assessing the effectiveness of the NIP, again, we 
routinely discuss these issues with seniors within the NSC and 
HSC.
    Mr. Langevin. Let me also turn, I know some of this may 
have been touched on, but, you know, I am deeply concerned 
about the tendency of agencies with national and homeland 
security responsibilities to focus exclusively on strengthening 
their own programs and initiatives, while losing sight of the 
larger strategic goals on which their programs are 
contributing. And I believe we must--it is absolutely essential 
that we have a defined framework for interagency cooperation to 
achieve the critical goal of combating terrorism both at home 
and abroad. Now, this framework obviously has to include 
coordination between members of law enforcement, military, 
diplomatic, financial communities, but more importantly, there 
needs to be a single overarching strategy to guide these 
efforts.
    The NCTC, as I mentioned and we know, was created 3 years 
ago and was the agency tasked with developing a comprehensive 
strategy for combating terrorism abroad, but it is troubling 
that we still seem to lack this vital strategy. So, Mr. Leiter, 
would you please explain the NCTC's role in establishing the 
framework for interagency coordination, and please describe 
specific steps your agency has taken to increase interagency 
coordination? And I understand that many of these details may 
be classified, but can you at least walk us through some of the 
major unclassified initiatives?
    And then I would also like the other witnesses to comment 
on this as well. Do you think there is currently sufficient 
interagency coordination, and in what ways can it be improved 
upon?
    Mr. Leiter. I will do the best I can in this setting, 
Congressman.
    Again, the NIP is the overarching strategic guidance. And I 
don't--although it is broad, I don't want to leave the 
impression that the NIP does not include significant detail. 
The NIP includes hundreds of specific tasks, going down to a 
very granular level. So this is not simply a document with sort 
of flowery language, this has very specific tasks. It was 
designed off GAO processes for requiring department and agency 
responsiveness.
    I also don't want to leave the impression it is just the 
NIP that the NCTC uses as a management tool. We also have what 
we call coordination, integration, and synchronization areas, 
and, put very simply, those are areas where a lot of people in 
the U.S. Government are involved, a lot of department and 
agency responsibilities, and no, quote/unquote, big dog to run 
the show.
    One of those that I think I can speak to in an unclassified 
setting is biometrics. Lots and lots of agencies use 
biometrics, Department of Defense, Homeland Security, law 
enforcement, intelligence. The NCTC has over the past year-plus 
worked very intensively with all of the departments and 
agencies, OMB, National Security and Homeland Security Councils 
to come up with standards and a game plan for looking out 3 to 
5 years to make sure that agencies are putting in place 
biometric programs that actually allow them to talk to each 
other in the future.
    So that is just one example in an unclassified setting, 
Congressman.
    Mr. Langevin. If the Chair would--could the panel comment 
on the rest of that as well? Do you think there is currently 
sufficient interagency coordination, and what steps could we 
take to improve upon that?
    Ms. Sanchez. I don't think they want to comment on that.
    Anybody else? Okay.
    Mr. Moreno. I will just comment briefly. In my 21 years 
with the U.S. Department of State, and working overseas, and 
the focus being on overseas and interagency cooperation, and 
the vast majority serving at posts in different areas around 
the world, that it really is dependent on the chief of mission 
to set the standard, or the Ambassador, and have the deputy RSO 
work with the FBI and chief of station and others to enhance 
that interagency cooperation.
    So I have seen great examples of it. I think interagency 
cooperation can always be better and enhanced and improved; 
however, I do think on a daily basis, at least what I have been 
exposed to, it has always been very positive in working 
together, but obviously there is always room for increasing 
that type of cooperation.
    Ms. Sanchez. Thank you. And I thank the gentleman from 
Rhode Island.
    Mr. Reichert from Seattle for 5 minutes.
    Mr. Reichert. Thank you, Madam Chair.
    I am happy that you are all here, and thank you for taking 
time out of your busy schedule to be here.
    And it was a pleasure yesterday, Ambassador, to have an 
opportunity to sit and visit with you, and congratulations on 
your new job, I think.
    Ms. Lino. Thank you.
    Mr. Reichert. I want to touch on this cooperation issue and 
who is in charge just a little bit, too. I think it is kind of 
a theme that is developing here. It is one that is of great 
concern. But I also want to point out just the other day, 
Monday, I was asked to manage a bill on the floor, and just to 
give you an example of how it is not all bad news about how our 
forces here in the United States and across the world come 
together to protect this Nation. And I just want to share this 
quick real, real positive story.
    There was a soldier who was wounded, severe head injury, in 
Iraq not too long ago. He was served by the 32nd Med Group in 
Iraq. He was immediately moved by a C-17 that was an airplane 
out of McChord. The crew was from Charleston. The doctor was a 
reservist from, I believe, Langley. The Air National Guard was 
a part of the crew. And the entire mission was managed from 
Scott Air Force Base. And the list goes on of the people 
involved in attending to the needs of one soldier wounded in 
Iraq, where all of these agencies, all of these military 
resources came together to get the job done. And I see your job 
in much the same way.
    But the question is who is in charge of counterterrorism 
activity overseas? Who really is the person who--agency who is 
in charge of that? We know you are all coming together and you 
are doing great things, but it does give us some comfort to 
know who is running the show.
    Mr. Leiter. Congressman, the Intelligence Reform Act of 
2004 was pretty clear on one thing, and that was existing 
department and agency authorities, responsibilities, and chains 
of command were not going to be changed. So ultimately, as Mr. 
Souder pointed out earlier, there is--I can't tell you that 
there is one person in charge of an operation overseas. When it 
involves many agencies, there are lots of agencies involved. 
Now, within a country you obviously have the chief of mission, 
and it is pretty clear. When you start crossing boundaries, you 
are in the world of cajoling and cooperating.
    Mr. Reichert. Yeah. Anybody else want to address?
    Ms. Lino. I would only echo, Congressman, what my colleague 
has said. And it was indeed a pleasure to meet you and some of 
your colleagues yesterday.
    I would echo that because it is very clear overseas who is 
in charge. I personally had that experience, and had it in an 
instance when there was a specific terrorist threat against my 
embassy, and everyone pulled together to work to deal with that 
specific threat. I can't go into a lot of details, although 
some of it was in the press at the time with respect to a 
threat against our embassy in Tirana.
    But crossing borders, or the kind of scenario that 
Congressman Souder outlined, is more complex, and it is not 
that--in the realm of overseas cooperation, it is not that 
counterterrorism is not number one on everyone's mind. It is.
    Mr. Reichert. Yes. No, I recognize that, and I also want to 
just keep this on a positive note from my perspective and my 
questioning. If you could just share with us what areas in 
counterterrorism do you think the Department of Homeland 
Security has made the most progress in coordinating with NCTC?
    Ms. Lino. Certainly. I think--well----
    Mr. Reichert. I want to hear some good news.
    Ms. Lino. Okay. I think that we work exceedingly hard in 
two areas--not to say that the other areas we don't also work 
exceedingly hard--but I would say that the focus has been to 
protect our country against dangerous people and dangerous 
goods. These are two of the fundamental things that we work on, 
and we can't work on it alone. We obviously work on it through 
the auspices of the NCTC and together with our other 
colleagues. And I think we have made significant progress in 
protecting our Nation against dangerous people and dangerous 
goods. And I could go into a lot more detail, but I think those 
are two areas where we have had great success.
    Mr. Reichert. I yield. Thank you. My time has expired.
    Ms. Sanchez. We have votes on the floor, so I think we are 
going to bring this to a close. But I do have something that is 
gnawing at me, because we did have this report done by the GAO. 
And this is in particular to Ambassador--is it Lino or Lino?
    Ms. Lino. Lino.
    Ms. Sanchez. It is Lino. They had it marked phonetically 
Lino, I am so sorry for that.
    Okay. So here is the problem. The report says that not only 
could we not get--well, we couldn't get information out of Mr. 
Leiter's organization for this report. Now, we are going to try 
to do that so we can figure out what is going on. Mr. Souder 
clearly defined that one plans, and you all implement. So this 
GAO report also says when it went out into the field and it 
talked to the implementers, or people on the front line doing 
this work, that they had no clue what they were supposed to do 
aside from things they had already been doing or aside from 
actual programs like Container Security Initiative. In other 
words, where the overall mission statements for many of the 
Department of Homeland Security pieces say things like 
preventing--overall mission, preventing terrorists and 
terrorist weapons from entering the U.S. while facilitating 
legitimate travel and trade. That is for CBP, for example. So 
they have this overall mission of stopping terrorists and 
terrorism, working with the host countries to do this, and yet 
when they were asked by GAO, How are you doing that, what is 
that about, how do you it, they said, We are not, basically. We 
are not. We don't have time for that, we don't have resources 
for that. Worse, we don't have a directive from our Department 
about how to do that.
    So now Mr. Leiter has said we have got that, and you have 
written a plan, or someone in DHS has written a plan to bring 
it all the way through. And yet at least at that time when they 
were asked, none of that was really going on. Can you talk to 
why not, is it, what has changed? And I think that will be the 
last question of the day. Ambassador.
    Ms. Lino. I am happy to answer your question, because I 
think to some extent it is a question of perceptions. If you 
say, for example, that a component of DHS is working on bulk 
cash smuggling, the individuals on the ground overseas may be 
focused on bulk cash smuggling, and not view it necessarily as 
antiterrorist, or trafficking in humans may not be viewed by 
the person on the ground as counterterrorism. But all of these 
things are part and parcel of what we do.
    An illegal alien smuggler may be used, either consciously 
or not, to smuggle in people who would want to do us harm. Bulk 
cash smuggling or narcotics trafficking, et cetera, may be used 
by terrorists to fund their work. Perhaps we do not do as good 
a job as we should in giving some of our people overseas the 
bigger picture into which they fit. Certainly at Homeland 
Security, in the Office of Strategic Plans, there is the folks 
who are the direct counterparts who work with the NCTC on 
counterterrorism plans. But the plan exists. The specific items 
which might--Mr. Leiter said are part of the plan, many of 
those things our people overseas are carrying out on a daily 
basis.
    Ms. Sanchez. Well, we will take a look at that now that we 
have an opportunity, and he says that he has them.
    Here is my big problem with what you have just said. The 
GAO also, in taking a look at the Department and giving its 
analysis of it, has said that management basically is terrible 
in Department of Homeland Security. Then when we look at the 
morale, at the surveys of all Federal employees, and we look at 
the DHS employees, the morale is the lowest. So clearly what we 
are trying to get at is how do we get--how do we do good 
management? Because the GAO has said over and over management 
is terrible. I mean, that is their biggest complaint, 
management is terrible.
    So you are sitting there telling me, Oh, this exists, and 
we are strategic, and, you know, these little people down here, 
they just don't get that it is strategic and everything.
    There needs to be better communication to these people so 
that they feel they are really doing what they read they are 
supposed to be doing, and so that their morale in a sense goes 
up because they are more connected. And this is a reflection, 
another example of a reflection on what is going on with 
management.
    So I will just--I don't need an answer to that. And I 
just--I mean, this is a message back. This has been identified 
over and over in all different areas of the Department as a 
problem. And when we see these types of things happening, it 
reflects it again.
    Ms. Lino. May I comment?
    Ms. Sanchez. Certainly, for about 2 seconds, because I have 
my counterpart here who needs to ask one more clarifying 
question.
    Ms. Lino. I would say two things very quickly. My personal 
experience with the people I work with directly, the posts I 
visited overseas, morale is excellent, and people are working 
together and are motivated. That is what my personal experience 
is.
    I was at the State Department when USIA was brought into 
the State Department and consolidated. It took time for 
consolidation to happen. Obviously, I don't need to tell you 22 
different entities being brought together----
    Ms. Sanchez. Absolutely.
    Ms. Lino. It took time to make----
    Ms. Sanchez. Absolutely, but it has been over 4 years. If 
it is still as bad as it is, we have got some management 
problems.
    Mr. Souder?
    Mr. Souder. Chairwoman Sanchez focused on the big question. 
That is the big question. Mr. Cote, you made a comment that I 
found disturbing. It is a little part of it, but it could be a 
morale question. In response to Mr. Bilirakis, when he asked 
you about whether statements were calculated in and whether 
somebody was going to get cleared, you stated that you would 
provide that to the State Department for them to make the 
decision. But my understanding of the statute is we 
particularly put you there, and you have a veto, and you each 
have a vote. Why wouldn't you have vetoed that? Why would it be 
a State Department decision?
    Mr. Cote. Well, I may have misspoke, sir, but we do this as 
a collaborative process and bring all the information we can to 
come to a decision. And in the end, if we cannot agree----
    Mr. Souder. By the way, that was not the way the law was 
written. It is that it nets collaborative----
    Mr. Cote. Right.
    Mr. Souder. --but each side has a veto. It is not to work 
between you to come to a compromise. You are there for national 
security reasons, and if you have any objection, it is your 
obligation to exercise a veto, because we debated about whether 
to give it entirely to the Department of Homeland Security, and 
we decided it was good to have impact back. But if you have a 
veto power--and that is one of the clarity things that need to 
come through the system that can undermine morale and other 
types of things.
    Now, I understand if you felt strongly, you would exercise 
that, and to some degree it is collaborative. But I want to 
make sure that the tilt here--because you will be held 
accountable for that, not the State Department, because you 
were put there specifically for a different risk variable. And 
I know we have got a vote on, and I didn't--but I wanted to 
make sure there was an understanding.
    Mr. Cote. Absolutely, sir. As a matter of fact, under 
section 428 of the Homeland Security Act, the Secretary has 
that authority, and we have a process by which we can invoke 
that, especially in those cases where we believe strongly. And 
part of our duty is to invoke that procedure if that process 
ever comes before us.
    Mr. Souder. Have you invoked it on a regular basis?
    Mr. Cote. We have only invoked it on a handful of cases in 
the last----
    Mr. Souder. I am sorry, this is ridiculous. Part of the 
reason--I was on the Government Reform Committee that put this 
in and worked with Ben Gilman. And part of the whole point of 
this is that the State Department needed this as an entry-level 
position. And I agreed to back off, as did a few others, in 
putting this solely in the Department of Homeland Security, 
because it is an important part of the State Department. But 
you should be the dominant in any kind of security thing. This 
isn't a matter of you have to persuade, and you only do it 
occasionally. You are the dominant clearance place. And this is 
the ultimate breakdown, because if we don't control that desk, 
we can't control who is in here.
    Mr. Cote. Sir, you are absolutely correct, and I agree with 
you. And when I say we work as a collaborative partner with the 
agencies that are there, the decisions are made in a 
collaborative format; but when there is a national security 
interest, there is a violation of law, any type of issue that 
we get pushback from any member of the collaborative process, 
we do invoke that. We have not had to invoke that, to clarify 
it, because the process works well.
    Mr. Souder. Presumably the State Department agrees they 
don't want a terrorist in.
    Mr. Cote. That is correct.
    Mr. Souder. It is the marginal, though, we are worried 
about.
    Mr. Cote. Absolutely.
    Ms. Sanchez. I thank the witnesses for their valuable 
testimony and the Members for their questions. And the members 
of the----
    Ms. Jackson Lee. Would the gentlelady yield for a moment? 
May I just put a question on the record, and I would be happy 
to let them answer in writing.
    Ms. Sanchez. Put it on the record. We have a vote on the 
floor, and we have less than 5 minutes to go.
    Ms. Jackson Lee. May I just say one point that I would like 
to make? And I thank the gentlelady for yielding. I was 
detained in another committee.
    I would just simply like to have the Ambassador, Principal 
Deputy Director just respond to this, as would I like to have 
all of you respond. The idea that this entity was put 
together--was to be the first line of defense, intelligence 
coordination. And my concern is that we are here in 2007, and 
we have no block, no firewall, because we have such fractures 
in the connectedness or the coordination of security and 
intelligence, meaning the coordination of security agencies. 
Please give me a road map--I know there have been many 
questions--on how you plan to improve the lack of coordination 
that has been proven and has been documented.

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
           Representative in congress from the State of Texas

    I thank you Chairwoman Sanchez for convening this important hearing 
to examine the status of counterterrorism overseas. I welcome Mr. 
Michael E. Leiter, Prinicpal Deputy Director of the National 
Counterterrorism Center, Ambassador Marisa R. Lino, Assistant Secretary 
of International Affairs in the Office of the Secretariat in the 
Department of Homeland Security, Mr. Gary L. Cote, Deputy Assistant 
Director of Immigration and Customs Enforcement, Mr. Edgar Moreno, 
Assistant Director of Domestic Operations in the Bureau of Diplomatic 
Security in the Department of State, and Mr. Thomas V. Fuentes, 
Assistant Director of the Office of International Operations Legal 
Attache Program in the Federal Bureau of Investigation. I look forward 
to your testimony.
    In the aftermath of the tragic events of September 11, 2001, the 
Department of Homeland Security was created with the mission of 
preventing future terrorist attacks, within our nation and abroad, and 
reducing the United States' vulnerability to future terrorist attacks, 
the success of which cannot easily be quantified. Be that as it may, we 
are here today to examine issues surrounding U.S. Law Enforcement 
Agencies' (LEAs) counterterrorism oversees, a necessary self-reflection 
that is integral to our national security. Since the September 11th 
attacks, the Bush administration has issued three primary security 
strategies: the National Security Strategy of the United States of 
America, the National Security Strategy for Homeland Security, and the 
National Strategy to Combat Terrorism. All of these strategies have at 
their epicenter the recognition of combating terrorism as the nation's 
top security goal.
    Never an isolationist, the United States has long kept close 
political and security ties with the other nations of the international 
community. However, in the wake of September 11th, there was a distinct 
shift with American LEAs abroad, now working to help foreign nations 
identify, disrupt, and prosecute terrorists within their countries'. 
LEAs from the Department of State, Justice and Homeland Security 
operate in U.S. embassies oversees to not only assist the foreign 
governments with their local law enforcement issues, but also in 
seeking and engaging vigilant allies in the prevention of further 
terrorist attacks. Agencies operating under the State, Justice, and 
Homeland Security Department overseas include: the Federal Bureau of 
Investigation (FBI), the Drug Enforcement Agency (DEA), Immigration and 
Custom's Enforcement (ICE), and the State's Bureau of Diplomatic 
Security (DS).
    Each agency and department has a specific role to play oversees to 
combat terrorism. To name a few, CBP's mission is to pre-clear U.S. 
bound passengers, work at foreign ports in search of WMDs, work at 
embassies on CBP activities in country; whereas ICE investigates 
threats to the U.S. to help reduce the potential threat of terrorist 
attacks against the U.S. While most overseas posts have multiple U.S. 
LEAs present in order to fulfill our modern security needs, American 
embassies often continue to operate within their pre-9/11 framework, 
unable to accommodate or facilitate information sharing between the 
myriad of agencies working within their compound. The GAO Report 
revealed, ``these groups did not function in an integrated manner, were 
not focused on joint investigations and operations, and did not harness 
the combined capabilities of all LEAs to prevent terrorist attacks.'' 
The GAO Report is inundated with statements by overseas officials 
candidly stating they ``had received little-to-no guidance from the 
NSC, NCTC, or State, Justice, and DHS on how to implement the directive 
to assist foreign nations to identify, disrupt, and prosecute 
terrorists.''
    With such a multitude of departments and agencies operating 
overseas, and with the same primary goal, accurate communication, 
cooperation, and coordination are absolutely imperative. I have long 
recognized this, and in 2004, my fellow members in Congress voted with 
me to pass the ``Intelligence Reform and Terrorism Prevention Act of 
2004'' establishing the National Counterterrorism Center (NCTC). The 
NCTC was charged with ``conducting strategic operational planning for 
the U.S. government's counterterrorism efforts,'' with emphasis placed 
on integrating all levels of national power, including law enforcement, 
homeland security, military, intelligence, diplomatic and financial, 
into a coordinated effort to combat terrorism.
    While the formation of the NCTC was a step in the right direction, 
many problems still remain. For one, on matters of strategic 
operational planning, the Director of the NCTC reports directly to the 
President, via the NSC, excluding any accountability to the Congress. 
In addition, when the GAO attempted to fulfill its role by inquiring 
into the operation and ``general plan'' of the NCTC, the GAO was told 
only that a ``general plan'' was in development and that it has been 
approved by the President in June 2006.
    This is unacceptable. The NCTC was created 3 years ago in order to 
enhance and coordinate our counterterrorism efforts abroad, however, as 
clearly evidenced by the GAO Report, progress has yet to be seen and 
there have been problems and jurisdictional issues that could be easily 
resolved if the NCTC performed its prescribed functions.
    As such the GAO has offered a number of recommendations to address 
the current issues. It has prescribed steps to be taken and positions 
to be created within the NCTC, NSC, US Attorney General, and the 
Secretaries of Homeland Security and State. As a senior Member of the 
Homeland Security Committee, and Chairwoman of the Subcommittee on 
Transportation Security and Infrastructure Protection, I understand 
that combating terrorism has become our nation's top national security 
goal, and I am resolved to see progress in global war on terror. As 
such, we must listen with open hearts and minds to the information we 
receive today and diligently work to ensure that it is integrated and 
implemented within our current system.
    I look forward to hearing the testimony of our distinguished panel, 
and I am hopeful that we will be able to resolve the current lack of 
overseas counterterrorism coordination. Thank you Madam Chairwoman, and 
I yield back the remainder of my time.

    Ms. Sanchez. And if you will do that in writing, we would 
appreciate it.
    I thank the witnesses for their valuable testimony and the 
Members for their questions. And the members of the 
subcommittee who will have additional questions for you, we 
would ask that you respond quickly to them in writing.
    Ms. Sanchez. Hearing no further business, the subcommittee 
stands adjourned.
    [Whereupon, at 11:27 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
